<html>
<title> - THE STATE OF RURAL AMERICA</title>
<body><pre>[Senate Hearing 115-692]
[From the U.S. Government Publishing Office]


                                                    S. Hrg. 115-692

                       THE STATE OF RURAL AMERICA

=======================================================================

                                HEARING

                               BEFORE THE

                       COMMITTEE ON AGRICULTURE,
                        NUTRITION, AND FORESTRY

                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 24, 2018

                               __________

                       Printed for the use of the
           Committee on Agriculture, Nutrition, and Forestry

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

       Available via the World Wide Web: http://www.govinfo.gov/
           
           
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
36-551 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------           
         
           
           COMMITTEE ON AGRICULTURE, NUTRITION, AND FORESTRY


                     PAT ROBERTS, Kansas, Chairman
MITCH McCONNELL, Kentucky            DEBBIE STABENOW, Michigan
JOHN BOOZMAN, Arkansas               PATRICK J. LEAHY, Vermont
JOHN HOEVEN, North Dakota            SHERROD BROWN, Ohio
JONI ERNST, Iowa                     AMY KLOBUCHAR, Minnesota
CHARLES E. GRASSLEY, Iowa            MICHAEL F. BENNET, Colorado
JOHN THUNE, South Dakota             KIRSTEN E. GILLIBRAND, New York
STEVE DAINES, Montana                JOE DONNELLY, Indiana
DAVID PERDUE, Georgia                HEIDI HEITKAMP, North Dakota
DEB FISCHER, Nebraska                ROBERT P. CASEY, Jr., Pennsylvania
CINDY HYDE-SMITH, Mississippi        TINA SMITH, Minnesota

             James A. Glueck, Jr., Majority Staff Director
                DaNita M. Murray, Majority Chief Counsel
                    Jessica L. Williams, Chief Clerk
               Joseph A. Shultz, Minority Staff Director
               Mary Beth Schultz, Minority Chief Counsel
                           
                           
                           C O N T E N T S

                              ----------                              

                        Tuesday, April 24, 2018

                                                                   Page

Hearing(s):

THE STATE OF RURAL AMERICA.......................................     1

                              ----------                              

                    STATEMENTS PRESENTED BY SENATORS

Roberts, Hon. Pat, U.S. Senator from the State of Kansas, 
  Chairman, Committee on Agriculture, Nutrition, and Forestry....     1
Stabenow, Hon. Debbie, U.S. Senator from the State of Michigan...     3

                                WITNESS

Perdue, Hon. Sonny, Secretary, United States Department of 
  Agriculture, Washington, D.C...................................     5
  
                              ----------                              

                                APPENDIX

Prepared Statements:
    Perdue, Hon. Sonny...........................................    42

Document(s) Submitted for the Record:
Bennet, Hon. Michael F.:
    Farm Equipment Auction Advertisements, prepared statement for 
      the Record.................................................    46

Question and Answer:
Perdue, Hon. Sonny:
    Written response to questions from Hon. Pat Roberts..........    50
    Written response to questions from Hon. Debbie Stabenow......    56
    Written response to questions from Hon. John Thune...........    63
    Written response to questions from Hon. Steve Daines.........    66
    Written response to questions from Hon. Patrick Leahy........    66
    Written response to questions from Hon. Sherrod Brown........    75
    Written response to questions from Hon. Amy Klobuchar........    77
    Written response to questions from Hon. Michael F. Bennet....    78
    Written response to questions from Hon. Robert P. Casey, Jr..    84
    Written response to questions from Hon. Tina Smith...........    85

 
                       THE STATE OF RURAL AMERICA

                              ----------                              


                        Tuesday, April 24, 2018

                              United.States Senate,
         Committee on Agriculture, Nutrition, and Forestry,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:05 a.m., in 
328A, Russell Senate office building, Hon. Pat Roberts, 
Chairman of the Committee, presiding.
    Present: Roberts, Boozman, Hoeven, Ernst, Grassley, Thune, 
Daines, Perdue, Fischer, Hyde-Smith, Stabenow, Brown, 
Klobuchar, Bennet, Gillibrand, Donnelly, Heitkamp, Casey, and 
Smith.

 STATEMENT OF HON. PAT ROBERTS, U.S. SENATOR FROM THE STATE OF 
KANSAS, CHAIRMAN, U.S. COMMITTEE ON AGRICULTURE, NUTRITION, AND 
                            FORESTRY

    Chairman Roberts. Good morning. I call this hearing of the 
Senate Agriculture, Nutrition, and Forestry Committee to order. 
If we can get our friends over here on my right from telling 
tales and enjoying themselves.
    This morning, I would like to welcome Senator Hyde-Smith to 
the Committee. She is not present yet, but we are sure glad to 
have another farmer and a former State Agriculture Commissioner 
at the table.
    Wait a minute.
    Senator Stabenow. You should welcome her again later.
    Chairman Roberts. I know. That is what I was going to say. 
She is not here yet, but I just wanted to make that----
    Senator Klobuchar. Perhaps you should do it when she is 
here. When she is here, that would be good. That would be nice, 
yes.
    Chairman Roberts. Are you all planning a coup, or what is 
it?
    [Laughter.]
    Chairman Roberts. Well, we are excited because we have our 
outstanding Secretary of Agriculture, Sonny Perdue, and today, 
as a matter of fact, marks a special day for the Secretary. On 
this day last year, the Secretary was confirmed by the full 
Senate. Happy 1-year anniversary, Mr. Secretary.
    [Applause.]
    Chairman Roberts. At the time of your nomination hearing 
last year, agriculture needed a voice, a champion, an advocate, 
at the highest levels of Government, and that is even more so 
today.
    Producers in Kansas and all across the country, about 
everybody here at the table, are going through a rough patch in 
the agricultural economy. Over the past 5 years, prices for 
many of our major commodities have dropped by over 40 percent. 
As a result, net farm income is expected to decline by 52 
percent.
    The ongoing pressure of low commodity prices continues the 
need for a high volume of sales. Now more than ever, our 
producers need certainty and predictability and a partner in 
Government that can help steady the ship and right the course.
    Mr. Secretary, I am very pleased that you hit the ground 
running in year one and know you will continue to do so. A lot 
of your time has been devoted to sitting on the wagon tongue 
with producers and business owners on your ``Back to the 
Roots'' tour all across rural America to hear their concerns, 
and that certainly is a good thing, sir.
    On the regulatory front, this administration has been 
proactive in trying to reduce unnecessary regulations that have 
hurt producers' bottom lines. Mr. Secretary, we thank you for 
that. These reforms decrease unnecessary burdens. They reduce 
costs, and they provide certainty to allow producers to 
maximize their output while producing the safest, most 
affordable food supply in the world. I know that you are 
working to continue these efforts in the coming months.
    Now, I have worked on a few Farm Bills during my time 
serving on the House and Senate Agriculture Committees. I might 
add, a privilege to do that. In fact, this is Number 7, and 
each of them has had a unique set of challenges.
    This bill must, unfortunately, do more with less, and it 
should ensure programs that operate efficiently and effectively 
and serve their original intended purpose.
    Senator Stabenow and I have spent well over a year 
traveling around the United States and holding hearings here in 
Washington, and what is apparent is that Farm Bill programs are 
absolutely critical.
    To that end, this Committee is doing its work in a 
bipartisan manner to make tough choices and to provide 
producers from all regions and commodities with the certainty 
and predictability that is needed to be successful. That is our 
Number 1 issue.
    Secretary Perdue, thank you for emphasizing the importance 
of reauthorizing the Farm Bill. In order for the Farm Bill to 
reach its full potential, U.S. agriculture must also be a 
reliable supplier around the world.
    This obviously is not a new concept. In the early 1990's, 
as Ranking Member of the House Agriculture Committee--part of 
the job was touting the benefits of the brand-new North America 
Free Trade Agreement, or NAFTA. Now, every trade agreement I 
have ever been associated with is both criticized and oversold, 
but there is a sweet spot.
    But since 1994, when NAFTA went into force, the value of 
U.S. agricultural exports to Canada has increased by 265 
percent--nobody predicted that--and to Mexico by 289 percent.
    It just makes sense to take a look at agreements like NAFTA 
to make sure they are functioning as they should be over two 
decades later.
    It also makes sense to work to hold trading partners like 
China accountable to their WTO commitments.
    But trade actions like those we have seen on steel, 
aluminum, washing machines, and solar panels also put the 
United States at risk of retaliatory measures that harm jobs, 
not only to agriculture--they always come back to agriculture-
but across all sectors in our economy.
    History has shown us that far too often, it is agriculture 
that bears the brunt of that harm.
    I hope that the United States and China can work 
aggressively to resolve these issues before we enter a full-
blown trade war. Our producers need a trade policy that looks 
forward. We must protect and develop our existing markets, and 
we need new markets to sell what we grow.
    It is absolutely critical that the administration support 
our effort with trade policies that grow and strengthen markets 
all around the world.
    Now, with that, I recognize my colleague and distinguished 
Ranking Member, Senator Stabenow, for her remarks.

STATEMENT OF HON. DEBBIE STABENOW, U.S. SENATOR FROM THE STATE 
                          OF MICHIGAN

    Senator Stabenow. Well, thank you very much, Mr. Chairman. 
I am also glad to welcome our new Committee member. So we will 
do that more formally at some point.
    I am absolutely pleased to thank and welcome again 
Secretary Perdue. As the Chairman said, it is the 1-year 
anniversary today of your confirmation. We are glad to have you 
back before the Committee.
    You have been very busy over the past year, and we are 
looking forward to hearing an update from you. In particular, 
you have been hitting the road on your RV tour, including two 
visits to my home State where you spent some time learning 
about the great things being done, including the great work at 
Michigan State University, my alma mater. I am very pleased 
that you were able to do that.
    Today, I look forward to hearing your perspective on the 
State of rural America. I know that you and I both have small-
town roots, and I think we can agree that rural communities are 
great places to live, raise a family, and start a business. 
However, many of these communities face unique challenges.
    Mr. Secretary, I know you are well aware that the farm and 
rural economy has been in a tough spot. Economic hardship and 
the need for food assistance remain higher in many rural 
communities. You also know that low commodity prices have 
continued to plague our farmers.
    As I am sure you heard in Michigan, our dairy farmers have 
been struggling with market instability, and for too long, they 
have not had a reliable safety net. After working with 
appropriations leaders for the last year, I am pleased that we 
were able to deliver much needed improvements for dairy farmers 
and cotton growers in the Bipartisan Budget Act, and I 
appreciate very much that the USDA has worked quickly to roll 
out the new and improved Margin Protection Program for Dairy we 
created.
    Unfortunately, the struggles with low commodity prices have 
been compounded by uncertainty around trade, as the Chairman 
has spoken about. I share Chairman Roberts' concerns on this. I 
believe we need tough trade enforcement when countries like 
China break the rules, but we must do everything we can to 
ensure that there are no unintended consequences for our 
farmers.
    The impact of retaliatory tariffs would be felt by farmers 
directly and indirectly. It does not just impact, for instance, 
Washington State when that State can no longer ship apples to 
China. It makes it harder for Michigan farmers to market their 
apples at a price that keeps them in business.
    We also need to address unfair trade imbalances as well. In 
Michigan, we are world-famous for our tart cherries. 
Unfortunately, a flood of imports from Turkey is harming the 
success of our cherry industry. Mr. Secretary, I have called on 
the USDA to protect our cherry growers from unfair import 
competition by approving a bonus buy, as you are aware, and I 
urge you to take action on their request. It is essential for 
our cherry growers.
    Given the State of the economy, we need to be investing in 
the future of our farmers and rural communities. That is why I 
was disappointed that the White House decided to double-down on 
proposed budget cuts that would hurt agriculture and rural 
families.
    I know, Mr. Secretary, at your confirmation hearing, you 
vowed to be a strong and tenacious advocate for rural America 
in this administration, and I believe you. Maybe we need to get 
you a megaphone because not everyone in the administration 
seems to be getting the message that we need to do more to 
improve the quality of life in rural America, not less.
    Recognizing this, Congress acted to reject the harmful cuts 
and instead deliver much needed investments, and I am very 
proud we did that. In the recent bipartisan omnibus, we 
provided the USDA with $600 million to expand high-speed 
internet. We know that is not a frill; that is a basic and 
absolutely critical for our farmers as well as businesses and 
families. We added over $1 billion for much needed rural water 
infrastructure improvements. The bill also finally fixed the 
Forest Service's broken budget and provided new tools to 
protect rural communities from devastating wildfires.
    On top of that, Congress worked on a bipartisan basis to 
give the USDA important resources to fill vacant positions at 
the Department, which will improve customer service.
    I urge you to use all of these tools to ensure our farmers 
and communities are getting the service I know you are 
committed to providing.
    We look forward to hearing more about your work to 
implement this bipartisan budget as well as your ongoing 
reorganization efforts at the Department, and we appreciate 
very much your being here today.
    Thank you.
    Chairman Roberts. I thank the Ranking Member for her 
comments.
    We now turn to our witness for today's hearing, hailing 
from the great State of Georgia. Secretary Perdue is our 
Nation's thirty-first Agriculture Secretary, and he brings 
valuable experience as a farmer, agribusinessman, veterinarian, 
State legislator, and Governor of Georgia to that role.
    Mr. Secretary, today marks 1 year since--and to the day 
since the U.S. Senate voted to confirm you to that role. We 
look forward to hearing your perspective on the State of rural 
America as well as the work you have done since then.
    Mr. Secretary, please proceed.

  STATEMENT OF THE HONORABLE SONNY PERDUE, SECRETARY, UNITED 
       STATES DEPARTMENT OF AGRICULTURE, WASHINGTON, D.C.

    Secretary Perdue. Thank you, Mr. Chairman and Ranking 
Member Stabenow. It is a pleasure to be with the Committee 
again. I want to thank you again for your kind treatment last 
year and the confirmation that marks our 1-year anniversary. I 
appreciate it very much. It is a fascinating job, even more 
broad and vast and deep and wide and impactful than I could 
have ever imagined in so many ways, and we have enjoyed getting 
across into many of your districts across there. I think we are 
at 36 States now, and we are going to click off about 5 more in 
the next couple of months. So we are trying to move around.
    We realize that most of our constituency lives outside the 
Beltway here. Your constituency lives there, and we want to 
hear from them. That is what we are trying to do.
    You have my written remarks, so I am going to be as brief 
as I can this morning to give time for your questions. My 
relative on your Committee knows that I have an older sister. 
She did not let me talk much, so I do not need to say a whole 
lot.
    [Laughter.]
    Secretary Perdue. Nonetheless, it has been an interesting 
year. I want to thank you again for the omnibus budget. We are 
going to do everything at USDA we can to implement that in the 
intention and the spirit of the language and the intentions of 
Congress to optimize those dollars for your constituents out 
there in agriculture but also your consumers out there who 
benefit from a viable agricultural community.
    Mr. Chairman, you are fond of saying we are in a ``rough 
patch,'' and I certainly agree with that. But I fear that it 
has moved to the whole farm, not just one patch in the farm. 
There is a lot of anxiety out there. You have enumerated some 
of that.
    It is somewhat cumulative, frankly. We have seen this is a 
very different environment over this Farm Bill in 2018 than it 
was in 2013 and 1914 with commodity prices. We have seen them 
continue to decrease, and that has added a cumulative stress 
over the ag community and the producer community. Then you had 
trade disruptions there, whether it be trade disruptions in 
NAFTA or China or KORUS or other things. It kind of creates a 
cumulative thing.
    You all know that we serve some of the strongest, most 
optimistic, most persevering citizens in the United States on 
the farms and fields, forests of America, but they are under a 
lot of duress right now.
    We see that very much in the dairy industry, and I 
appreciate what opportunity you gave us in the Margin 
Protection Program. We are going to implement that as quickly 
as possible and make that retroactive to January, which will 
help some farms, but still some of the dairy farms are under a 
lot of duress, as many sectors in agriculture are.
    So I appreciate the opportunity to come and give a report. 
I think it is probably better done in a dialog from a 
perspective of your Committee's questions, and I look forward 
to doing my best to answer each one of them honestly and 
forthrightly as we are able to.

    [The prepared statement of Secretary Perdue can be found on 
page 42 in the appendix.]

    Chairman Roberts. Secretary, thank you, and thank you for 
being an advocate for agriculture throughout the Government 
over the past year.
    The administration has taken several trade actions that 
from a historical perspective have been very concerning in 
regards to potential negative consequences for U.S. 
agriculture. Mr. Secretary, in your view, where does U.S. 
agriculture rank as a priority regarding trade policy decisions 
that both have been and will be made?
    Secretary Perdue. Well, we certainly--and beginning last 
summer, as we began the weekly trade meetings, we have---and 
the President's comments regarding NAFTA, we early on, shortly 
after confirmation, were in the Oval Office and heard his 
comments there, and he relented, thankfully, in that. I am 
hopeful that we will see a successful NAFTA conclusion here 
shortly. That is never done until it is done, never over until 
it is over, but I am hopeful that we will do that.
    I can tell you from his perspective and the Cabinet's 
perspective, they have heard about the ag economy all year 
long. They understand very clearly that any type of trade 
action--and I applaud the President for calling China's hand 
over their unfair trade practices that you mentioned had been 
really done since they joined the WTO in early 2000's, that 
they really have not played by the rules--intellectual property 
theft, forced transfer, many other types of things.
    You are aware, Mr. Chairman, that even that has affected 
agriculture with--I think in Senator Ernst's area, having some 
people convicted of actually pulling up corn seed and trying 
the reverse engineering, the technology there. Agriculture 
depends on a lot of technology now. So our agricultural 
community has been victims of this technology transfer and 
intellectual property theft as well.
    But the administration knows full well they have got a lot 
of support in the farm area. They want to be with them, but 
there is concern that over their livelihood and really I think 
a legitimate anxiety that we have communicated to the President 
and to the Cabinet.
    We have discussed, obviously, your proposal that we want 
trade, and we want to open new markets, rather than aid, but I 
think it is my responsibility, incumbent upon me also, to look 
at any kind of mitigation strategies from a USDA perspective in 
case those negotiations do not take effect.
    So we are encouraging the President, now that he has gotten 
China's attention, to get to the table, and let us resolve this 
the way we would resolve any trade dispute and lay things on 
the table that we feel like we must have.
    Chairman Roberts. Well, the President has on several 
occasions discussed existing trade agreements and their 
renegotiation, obviously NAFTA.
    Ambassador Lighthizer is here in Washington along with his 
counterparts, with Canada and Mexico as I am speaking, and I 
hope that we can reach some positive conclusion.
    The point I would like to make is that in the realm of 
negotiation, any statement that is being made, even though it 
is not conclusive with regards to finalizing any negotiation, 
is market-sensitive, and I can recall when I was at the White 
House with many of our colleagues here. We have had several 
meetings. It was in response to some very public negotiation 
statements by the President and others, and the markets reacted 
with regards to what China said they would do--and this 
situation was with washing machines and solar panels.
    That same day, we had the Kansas sorghum producers in my 
office, and they were pretty pleased with the export market 
with China because sorghum is a feed grain, as you well know. 
We are the Number 1 producer, and on that very day, an 
announcement was made or a statement was made by the President 
with regards to solar panels and washing machines. China 
responded, and it was a retaliatory move that was even-steven, 
as far as they were concerned, to come back.
    That particular day with the market, why, one producer, 
when I came back from the meeting, indicated that he just lost 
80 cents on the dollar. Now, I do not know where he was in 
contracting or when he had to sell his product or whatever, but 
that is the kind of thing that I think worries us all, 
regardless of what is the problem I am talking about. So that 
kind of thing has real consequences.
    I think you could even say that in some cases, we are using 
farmers, ranchers, growers as a pawn with regards to try to get 
there from here on a better trade agreement. Now, those are 
pretty strong words. I do not mean that in an accusatory 
fashion. That is just the way it is.
    So what is the path forward for foreign trade policy plans, 
in your view? How can we avoid that?
    Secretary Perdue. Well, again, I think it has to do with 
negotiations. Again, we have tried over the years--other 
administrations have tried--to get China's attention, and there 
is a lot of talk and no action.
    I think President Trump does have a unique negotiating 
style. We will all acknowledge that, but to some degree, it has 
been successful. I think, hopefully, it will be successful with 
North Korea as well as other countries.
    But farmers have a right to be legitimately anxious over 
the future because that is their livelihood. As you know, the 
sorghum industry that you mentioned that is probably Number 1 
in Kansas there had benefited by the lack of a TRQ in China. So 
the sorghum prices had been elevated above corn, which is not 
traditional anywhere. Usually, it is traded as a discount to 
corn, but because China had chosen to import sorghum rather 
than corn, it had a very beneficial position they have enjoyed 
since 1913 on that.
    So our position actually is to--and I have to go back to 
the President looking me in the eye and saying, ``Sonny, I know 
that farmers out here are worried about what we are doing, but 
you need to tell them that I am not going to let them be the 
casualties in this trade dispute.'' We are not laying out the 
playbook about all the authorities or what we would do, and I 
am with you, Mr. Chairman. I would rather have trade than aid, 
but at some point, when people are not doing right, farmers 
understand. They do not like thieves. They do not like people 
who steal or cheat. They like people who play by the rules, and 
that is what the President is doing in calling China's hand.
    Now, did he understand there was probably going to be some 
discomfort and some anxiety in the meantime? I think we all 
did, but it has to be done. But nonetheless, while the sabers 
have been rattled, there is time to get out on the table, and I 
am hoping we will take advantage of President Xi's, I think, 
rather conciliatory remarks about wanting to do some things and 
get back.
    It is a dangerous thing to think about the Number 2 
economies in the world being at trade war, and that is not what 
the President wants, I do not think. But he wants them to play 
fair, and I think the American people want them to play fair 
and to play by the rules.
    We would love to have a fair, reciprocal trade arrangement 
with every country in the world. As you know, our farmers have 
been so productive and successful. We are at a disadvantage 
almost everywhere in the world we go with our agricultural 
products getting in. There are barriers and walls built up for 
protectionism that protect them, and we let these other 
products come in almost at will.
    So the challenge is to right--rebalance over things that 
have evolved over a number of years, and that always has some 
discomfort and anxiety associated with us.
    Chairman Roberts. Senator Stabenow.
    Senator Stabenow. Well, thank you, Mr. Chairman.
    To talk more about trade, I mean, obviously trade is very 
complicated. My basic philosophy is that we want to export our 
products, not our jobs. So how do you get that level playing 
field to make sure that farmers are getting markets to be able 
to do that.
    I think we all agree that our farmers and ranchers can 
compete with anybody if it is a level playing field, so I want 
to talk about the level playing field piece because there are 
several pieces to it. As we know, farmers need markets, and we 
not only have China breaking the rules, but there are other 
countries, as I had mentioned.
    So, Mr. Secretary, as we look at NAFTA renegotiation, 
Canada is undercutting our dairy exports. That is making it 
exceptionally difficult for our farmers.
    I have talked to our Trade Representative, Mr. Lighthizer, 
several times and our Ag Negotiator, Gregg Doud, about this and 
how critical it is to come to a conclusion on NAFTA where we 
address what has been a significant dairy problem.
    At the same time, I mentioned the unfair competition with 
imports from Turkey that relates to cherry producers.
    Other countries also continue to erect unscientific 
barriers to many of our products. We need markets with a level 
playing field and strong trade enforcement.
    What role have you and the USDA played in efforts around 
trade enforcement up to this point, both in the context of 
updating trade agreements like NAFTA and in other ways as well? 
Will you advocate to make agriculture a priority in these 
conversations and to hold our trading partners accountable on 
that piece of the equation?
    Secretary Perdue. Absolutely, Senator. That is what I think 
we tried to do to the best of our ability.
    I have been a principal at the trade discussions, at really 
weekly trade meetings, that have been conducted throughout the 
last summer of 1917, the fall, and even into now regarding our 
strategies. I have been in touch on a regular basis, probably 
weekly, if not more often at that, with Ambassador Lighthizer.
    As you know, the statutes give the USTR Ambassador the role 
of negotiator and enforcer of U.S. trade regulations.
    Senator Stabenow. Right.
    Secretary Perdue. But nonetheless, we can, from a USDA 
perch, make them understand the implications of not only what 
is done, but what is being said regarding that as well.
    You made a good statement, I think, that is really driving 
some of the President's decisions over this because while I am 
mostly concerned with the U.S. ag economy, he has to be 
concerned with the overall economy. Just your State, as you 
know, has been affected by a loss of jobs, while agriculture 
has been a beneficiary of NAFTA. It has been a detriment in 
some industries there, and he obviously looks at the job loss, 
particularly in the auto, auto parts sector, to Mexico and 
wants to correct that.
    We think some of the provisions we had there created an 
exodus of U.S. jobs into Mexico. We believe--we are trying to 
keep them mindful of the fact of ag manufacturing jobs that are 
here. You know, you can export a factory; you cannot export a 
farm. That is what we are trying to keep them ever mindful of, 
the impact and the integrated impact the U.S. agriculture and 
value-added processing has into the overall economy that goes 
right with the steel and aluminum issues, not only the 
retaliatory issues, but the higher cost of products and 
consumer products.
    Senator Stabenow. Well, there is no question that this is 
complicated, but that is why it needs to be done. I am sure you 
would agree in a very thoughtful way, so that we do not have 
agriculture in the middle, as the Chairman was talking about, 
with all of this.
    On a different subject, Mr. Secretary, you have 
consistently stressed the importance of customer service at the 
USDA, but we have seen a hiring freeze for a long time at the 
USDA. In Michigan, we are seeing significant vacancies in 
conservation and farm program field offices. Farmers are very 
concerned now, as they are going to their local offices, that 
there are fewer staff when they are trying to sign up for the 
new and improved dairy program.
    We have also heard there are significant vacancies in the 
National Organic Program, which is making it harder to meet 
consumer needs and also protect against fraudulent imports, 
which is another area around trade.
    As we put together the Farm Bill, we need to be sure that 
the USDA has enough employees in place to be able to quickly 
implement new or improved programs.
    So will you commit to hiring up to the full levels allowed 
under the funding provided in the 2018 Omnibus, which is higher 
than the President's 2018 and 2019 budget request? It is full 
funding that we have come together to give you to meet those 
customer service needs that I know that you want to fulfill. So 
can we count on you to hire up to the full levels that we have 
given the funding for in the budget?
    Secretary Perdue. As I have expressed appreciation for the 
budget money and the certainty of that, while the technical 
freeze was over last spring actually, what we have tried to 
do--what I would rather commit to you, Senator, is that we will 
hire the number of people that it takes to serve your 
constituents in the way that I think they want to be served.
    We have asked our Under Secretaries--and by the way, I need 
to put in a point. We still need some more, and I hope we can 
get confirmation of those soon, but I have asked every Under 
Secretary to give us a strategic hiring plan about where the 
right people ought to be in the right place at the right number 
with the right expertise in order to do the kind of customer 
service that we are committed to do.
    I cannot tell you right now whether that will expend all 
the money. As a farm boy, I try to get the job done, not just 
spend all the money. So if it takes some money, we are going to 
spend it. If we can again put the right people in place where 
you do not hear any kind of customer service complaints from 
your constituents, I think we will have been successful, and I 
hope that is ultimately what we all want to do, is to have the 
people on board that can get the job done, with expertise and 
with the number in the right places.
    Senator Stabenow. Well, I could not agree more. We just 
want to make sure that you in fact have the people in place to 
meet the customer service needs and have the ability to move 
quickly on implementing programs, which I know we both want to 
do.
    Secretary Perdue. We are moving out on that with our Under 
Secretary in FPAC, Bill Northey, who was delayed, as you well 
know. We are moving there.
    We have gone through his strategic hiring plan. He is 
beginning to populate that in those areas. There have 
definitely been some holes there in our FPAC offices, and we 
hope to cure that very quickly.
    Senator Stabenow. Great. Thank you.
    Thank you, Mr. Chairman.
    Chairman Roberts. Thank you, Senator.
    I might point out that this Committee is not the bump in 
the road. We have confirmed 11, the 11 we have received. There 
are three in waiting. There is still some paperwork, I think, 
and some vetting to do on those three. It might be productive 
that the leadership on both sides could agree to get something 
done, at least anything done, without filing cloture.
    I think if a rabbit crossed the Senate floor that the 
distinguished leader of the Minority would probably either file 
cloture on the rabbit or shoot it, and so that is a real 
problem.
    Senator Stabenow. Unfortunately, that has been a pattern 
for a number of years under both majorities, and so I am glad 
that our Committee moves quickly together, Mr. Chairman, to get 
things done.
    Chairman Roberts. We did not used to do that. We really did 
not used to do that, and I do not mean that to be the focus of 
this hearing. But it is a heck of a problem.
    Senator Hoeven.
    Senator Hoeven. Thank you, Mr. Chairman.
    As we go into the Farm--on trade, you and I have talked, 
and your efforts on behalf of our farmers are appreciated. We 
know you are going to continue to be advocating for them and to 
try to reduce uncertainty and get the very best position that 
we possibly can. I just would like your comment on that.
    Secretary Perdue. Well, again, Senator, I think, again, 
trade is on everyone's mind. We are trying to open new markets. 
We have had some success over the last year. Most notable, 
obviously, is beef back into China after 13 years. We just 
announced pork back into Argentina since 1992. We have 
negotiated U.S. rice into China for the first time ever. We 
have still got some technical details to work out there. Lifted 
South Korea's ban on poultry imports. We have eased the 
regulations on U.S. citrus in the EU, and we have resumed 
distillers grains back into Vietnam, hope to get back into 
China after this upset is, and the reentry of chipping potatoes 
into Japan.
    Thankfully, the position you all have approved in the 1914 
Farm Bill for the Under Secretary for Trade, Ted McKinney is on 
the worldwide tour, not just a domestic tour, all around 
knocking on doors in India and in the Indo-Pacific region as 
well as South America, looking to build that relationship and 
that demand there because we need--we cannot just depend.
    We should not be just depending China, anyway, regardless. 
We have got to depend on those other populations, growing 
populations into Indonesia, Malaysia, Vietnam, the Philippines 
in the Indo-Pacific region.
    So it is really an effort to try to continue to build 
those. The challenge is here right now with what is happening 
with TPP and the EU trying to go across the country, across the 
world, and gain those markets. It will be difficult if we do 
not get ahead of them to regain that.
    So we are making those efforts, using that position that 
you all authorized to try to gain more market share.
    Senator Hoeven. Well, we appreciate your advocacy, and we 
want to help you in that advocacy to open markets for our 
producers any way we can.
    On the Farm Bill, No. 1 priority is crop insurance. Do you 
share that as a No. 1 priority--or talk about the importance of 
crop insurance in this Farm Bill.
    Secretary Perdue. I think it is the No. 1 priority from a 
risk management tool. I think the evolution that we saw, the 
revolution that we saw in the 1914 Farm Bill and producers 
participating in the risk management activities is more 
palatable for the public, and we think it is appropriate that 
we continue that.
    There is probably some fine-tuning that needs to be done in 
specialty crops. There were some other crops that we realized 
in the hurricane that we did not have the actuarial data and 
maybe the premiums where they should be. We hope to fine-tune 
that.
    I think in dairy, while the MPP is helping, I think the 
Farm Bureau probably has another product that may help dairymen 
even more in the crop insurance area as well.
    So, absolutely, I do believe that crop insurance is at the 
top of the list as far as risk management tools for the safety 
net.
    Senator Hoeven. Would you agree that strengthening and 
flexibility in ARC and PLC would be a good thing as we go into 
this Farm Bill?
    Secretary Perdue. I would, yes.
    Senator Hoeven. Okay. Would you agree that we have to have 
ag research that has to be a priority?
    Secretary Perdue. No question about it.
    Senator Hoeven. Then the average age of our farmers now is 
60 years old, and of course, I think that is pretty young 
myself, you know, but----
    Senator Klobuchar. For the Senate.
    [Laughter.]
    Senator Hoeven. For the Senate, yes. As Senator Klobuchar 
said, for the Senate.
    But we need to get young farmers out on the land. I have 
got----
    Chairman Roberts. You are on dangerous ground here. I just 
want to let you know.
    [Laughter.]
    Senator Hoeven. Our young farmers need access to capital. 
So the beginning farmer loans, beginning rancher loans are 
important, but also, I am working on a provision. Matter of 
fact, I have worked on it with Senator Klobuchar, and that is 
we need to expand the FSA guarantee. We are looking to take it 
to $2.5 million, and the direct loan from $300,000 to $600,000, 
we would like to include that in the Farm Bill. Your thoughts 
on capital and young farmers?
    Secretary Perdue. I would encourage that, Senator.
    The guarantee loan lenders have been very good 
underwriters, very good partners in the ag community, and we 
depend on them.
    You remember, may remember back in the 1970's and 1980's, I 
think the old Farmers Home Program was too liberal. We need 
good underwriting, but also, we need access. As you understand 
the barrier, the financial barrier, the capital barrier to 
entry is so high today. The levels that we had in 1908 need to 
be indexed up from a direct and from a guarantee position. So I 
would encourage you to continue.
    Senator Hoeven. Thank you, Mr. Secretary.
    Thanks for coming to our State as well. Our producers 
really appreciated having you out there. Thanks so much.
    Chairman Roberts. Senator Klobuchar.
    Senator Klobuchar. Thank you very much, Mr. Secretary, for 
your leadership, and thank you, Mr. Chairman and Ranking Member 
Stabenow, for their leadership.
    I really enjoyed the coffee you had, by the way, with the 
Secretary and his team. I wish we did that in every Committee. 
It was a really good idea.
    So the Farm Bill is just so incredibly important this year, 
and we are looking at a very bipartisan way in the Senate. Is 
there any way you can use your cheery influence to get the 
House to see that in that way? Because I am just so concerned 
about the divide that is going on over there.
    Secretary Perdue. Next on your Senate list.
    [Laughter.]
    Senator Klobuchar. I do not really have--it is more of a 
statement. I just hope whatever you can do to urge them to drop 
some of these ideas and proposals because it is just going to 
make it hard to get the bill done.
    You know how important renewable fuel standard is in 
Minnesota, and we have all been working on that over here. 
Recent reports indicate that dozens of small refiner waivers 
have been granted to large refining companies, effectively 
reducing the 15-billion-gallon target for the RVO.
    Senator Grassley and I led a letter to Administrator Pruitt 
expressing our concerns with some of these actions. Did 
Administrator Pruitt brief the President on the small refinery 
waivers, and has USDA sought any information from the EPA on 
these refinery waivers?
    Secretary Perdue. We have requested that information. It is 
our understanding that probably at last count, a billion-one-
two gallons were waived in that regard. As you well know, our 
concern is that is just direct demand destruction. The RVO is 
there statutorily for a reason, of 15 billion gallons.
    The President last fall directed the Administrator to leave 
that at 15 billion gallons, and we are concerned over the 
waivers. We believe that is adequate compensation for RIN 
prices, where that the Administrator could then extend the E15 
waiver for all 12 months, and that would be a good move, 
obviously, and good faith effort, having issued these waivers 
that gets us below the blend wall.
    We think the RIN game is being played really against big 
oil and little oil. For the people who can blend, the refiners 
who can blend, we think they are using a nontransparent market 
to hurt their smaller competitors in that regard from hoarding 
RINs and driving up RIN prices----
    Senator Klobuchar. Mm-hmm.
    Secretary Perdue [continuing]. and I think that is as much 
a factor as the blend wall.
    Senator Klobuchar. Okay. Okay. Thank you.
    Senator Grassley and I are going to expect answers, and we 
appreciate your advocacy here because we have seen an 
unprecedented number of waivers that used to just be a small 
number every year, and so we are very concerned about that.
    I recently had a conversation with Ambassador Lighthizer 
about the NAFTA negotiations--it is really important to ag; you 
know that--as well as something Senator Stabenow raised, and 
that was just the dairy issue with Canada and how we would like 
to resolve that. I can put those questions on the record, but 
just having been out in the rural parts of our State the last 
few weeks, there is just a lot of concern about the trade war. 
That is not new news to you.
    The Margin Protection Program for dairy, we know that falls 
short of being an effective safety net. Given the challenges 
with the original MPP, what outreach efforts have you and your 
team undertaken to educate dairy producers about the recent 
changes that we just made?
    Secretary Perdue. We have. We understood that there would 
be some reticence over the rejoining the MPP, but the good news 
is most farmers are ahead of us. They understand the enhanced 
provisions, and they also are pretty smart business people. 
They can go back to January retroactively and calculate. They 
are going to benefit from that.
    Senator Klobuchar. Do you know a timetable for implementing 
the new insurance products?
    Secretary Perdue. Yes. We hope to have that done in June. 
The sign-up will be there, and it will be June, retroactive 
back to January 1.
    Senator Klobuchar. Okay. Thank you.
    I join Chairman Wicker--Senator Wicker in introducing the 
Precision Agriculture Connectivity Act to identify gaps in 
coverage and encourage broadband deployment on farms and ranch 
land, a lot of work. As you know, this is the future, and it is 
not going to work or we are not going to be part of that future 
if we do not have adequate broadband.
    Would better data on broadband deployment on crop and ranch 
land speed up the deployment of precision ag technology?
    Secretary Perdue. It would, and I think everyone 
understands that the FCC maps coverage are not exactly correct, 
and I think we have got to start with good facts and data.
    The $600 million you all approved for pilot projects at 
USDA----
    Senator Klobuchar. Mm-hmm.
    Secretary Perdue [continuing]. We hope to use that very 
quickly and use it with private partners in the sector, whether 
they be co-ops, rural electric co-ops, telephone co-ops, or 
other private sectors that want to participate, even 
municipalities and communities there, to leverage that $600 
million for coverage.
    We are not interested in pilots that just do a little hot 
house, greenhouse kind of focus, but something that can be 
expanded ubiquitously across the country because----
    Senator Klobuchar. Exactly.
    Secretary Perdue [continuing]. We need it everywhere.
    Senator Klobuchar. Great. Very good. Thank you again.
    Secretary Perdue. Thank you.
    Chairman Roberts. Senator Perdue.
    Senator Perdue. Well, thank you, Mr. Chair.
    To the Ranking Member, her suggestion about giving the 
Secretary a megaphone, having grown up with this man, that is 
not what we want to do.
    [Laughter.]
    Senator Perdue. I want to say this before we get started, 
though. It has been a year, and I am very proud of the way that 
this Secretary has gotten out of Washington and gone to see the 
real people, and I am also proud of this Committee. This is the 
most bipartisan committee that I am on, and I think this is a 
model for the rest of the Senate about how to get things done. 
We do not have all the answers, but we have got a great working 
relationship. I thank the Ranking Member for that.
    Mr. Secretary, as I look at the U.S. economy--and I know 
job one is growing the economy--by far, the largest opportunity 
we have is in our ag area in terms of growth and growing jobs 
and opportunities in the U.S.
    There are four risks that I see right now to doing that. 
One, we walk about trade, and I have got a question on that if 
we have time, but the other three are a little bit more within 
our own grasp. That is water, labor, and infrastructure. Will 
you talk to us just a little bit about labor? It just seems to 
me that with the urbanization of America--our State is a 
perfect example. When you were elected Governor, I think over 
half the State lives south of Atlanta. Today, over 60 percent 
live north of Atlanta, and a lot of people have left the 
agricultural communities.
    I know you have a very strong heart for developing rural 
America, but help us understand H2A and what the Ag Department 
can and is doing to help us deal with this limiter or this risk 
for growth in the ag industry.
    Secretary Perdue. Thank you, Senator. You have hit on 
really three important things.
    When we go around--and as we have done--what we hear from 
you and your colleagues, but mostly your constituents, there 
are three primary issues. Trade, we have talked about. Labor is 
probably Number 2, and regulations is Number 3. Some of that 
regulation has to do with water, obviously, but labor is 
critical.
    Over half of the American farm workers are foreign-born. It 
is critical that we have a legal work force out here.
    I know that some communities have experienced trouble with 
ICE coming in, and there is a fear out there. Many of these 
people have been here over the years, but the H2A program has 
been essentially ineffective because it is so onerous and 
complying with all the rules and regulations. Most smaller 
producers just give up.
    There are two ways. We have encouraged the Congress to look 
at Chairman Goodlatte's bill on the House, and when you all 
deal with a comprehensive immigration bill, I certainly hope 
that agricultural labor will be in there.
    Second, while we cannot really wait for that, we are 
working in a regulatory fashion with the Department of Labor, 
Department of Homeland Security, and the Department of State, 
the other three agencies that have equities in this field, to 
help to smooth that out.
    We have been volunteered to be a portal for farmers to 
apply to get those early things out of the way to qualify 
themselves for H2A workers. It really right now just does not 
work for farmers, and it needs to be retooled.
    Senator Perdue. Have you engaged with Department of Labor 
about the interaction that your two agencies could have to 
streamline H2A?
    Secretary Perdue. On an ongoing basis, and we have one 
young female attorney who is very knowledgeable in this area. 
This is her primary function, and we have been very encouraged, 
frankly, between the White House and a policy coordinating 
committee that has been assigned to do that.
    We have had a formal process between those four agencies 
discussing it and the NEC as well.
    Senator Perdue. You mention the successes you have had--or 
the country has had in China, Argentina, South Korea, and 
others.
    I just was in South Korea, and they are delighted that the 
week after we were there--we had nothing to do with it, but we 
have a new FTA, Free Trade Agreement, with them. It is a much 
more level playing field, and thank you for your role in that.
    Also, I know that the President's first predisposition was 
to blow NAFTA up, just like it was to back out of NATO, and 
then we would get a better deal with NAFTA. I know you had a 
strong role in convincing him that that might not be the best 
road, and here we are on the cusp, hopefully, of having a true 
NAFTA deal.
    I want to talk about India. India is another one of those 
countries that has some real imbalances here. Pecans, which is 
the U.S. has 80 percent of the world's share of production in 
terms of pecans, they still have a 36 percent tariff. Are we 
entering--and by the way, other nuts are only 10 percent going 
into India. That is a stubborn topic with those guys. Have we 
made any progress in that?
    Secretary Perdue. We have dispatched Under Secretary 
McKinney there twice. You have dealt with India yourself. You 
know while it is a democracy, it is a very unusually closed 
society and very difficult to do business there.
    We think over a billion hungry mouths there that would love 
American food, we are going to take that on as a challenge to 
try to crack that pecan nut, if you will not mind the--we are 
going to try to crack that-to get more products into India. It 
frankly, historically, has been very difficult. I do not know 
how successful we will be, but we are going to continue to 
knock on the door.
    Senator Perdue. Thank you, Mr. Secretary.
    Thank you, Mr. Chairman.
    Chairman Roberts. Senator Heitkamp.
    Senator Heitkamp. Thank you, Mr. Chairman, and thank you, 
Secretary for coming. Again, thank you for coming to North 
Dakota.
    This is the challenge that we have. Poverty rates, one out 
of every three rural counties have poverty rates in the 
percentage of 20 percent. We have seen net farm income decrease 
by about 50 percent. We have aging work force, including our 
farm work force, which is at 58.3 percent or 8 years of age. 
Challenges, challenges, challenges.
    We need a robust pro-agricultural vision. I think you 
present that. Unfortunately, we do not hear the same thing 
coming out of the White House, and I want to take up trade 
first.
    TPP, NAFTA, the wash machine/solar panel tariffs, steel and 
aluminum tariffs to the Chinese, potential Chinese tariffs, all 
showing a trend of trade disruption and trade retreat, 
especially as it relates to agriculture, none of it good. So I 
do not want to just focus on the Chinese tariffs. I want a 
better understanding of what direction this administration is 
heading in trade policy because I do not think these messages 
are appropriate in a country or in a world where we are only 5 
percent of the population.
    So I know--I think the first three words you said to me 
during our visit was ``trade, trade, trade'' because you know 
and I know we are not going to be successful in agriculture 
unless we open up those trade markets.
    I want to just move from trade and talk a little bit about 
the Farm Bill. We need to understand the administration's 
position on the House Farm Bill, what do you agree with, what 
do not you agree with, how can we help bridge the gap, because 
once we get done, we think it is incredibly important that we 
be able to move quickly.
    The third thing I want to talk about--and this disturbs me 
as much as the trade, the lack of sensitivity to what trade 
disruption has meant for agriculture, and that is the 
administration's budget in comparison to what you think you 
need to run USDA.
    We are obviously in a shortage of workers in my State for 
our farmers to go to the FSA office. We know that the future of 
American agriculture is in research. It is in trade promotion, 
yet those programs get zeroed out.
    The future of the American agriculture is in beginning 
farmer, beginning worker programs, but yet we do not seem to 
see any movement in that direction.
    So I said all these things kind of in its entirety because 
I think it is really critically important that we understand 
that you cannot evaluate that the challenges that we have in 
rural America, looking at just once piece of this pie. So it is 
budget, it is trade, it is RFS, which I have not even talked 
about, but Amy did a good job talking about, and it is 
implementation of these policies.
    Now, I trust you to protect agriculture, but I want to know 
what you can do within your role as Secretary, beyond what you 
have done, to try and really get people to understand, 
including people like Mick Mulvaney, the incredible challenges 
that are ahead for American agriculture if we do not send the 
right signals right now.
    Secretary Perdue. Thank you, Senator.
    I think let us address the trade issue first. I guess while 
we have acknowledged that President Trump has a unique style of 
trade negotiations, if you look at KORUS, that really was 
completed I think to the benefit of the U.S.
    Senator Heitkamp. Could you tell me what was in the 
renegotiation for agriculture?
    Secretary Perdue. Not a lot, but----
    Senator Heitkamp. Yes.
    Secretary Perdue [continuing]. you know what the demand 
was, do no harm----
    Senator Heitkamp. Yes.
    Secretary Perdue [continuing]. in that area.
    Senator Heitkamp. I know, but that was not a net positive 
for agriculture.
    Secretary Perdue. Well, I think in light of the threat of 
withdrawal, it was a net--I believe it was a net----
    Senator Heitkamp. I agree with that.
    Secretary Perdue [continuing]. not withdrawal, although we 
were able to do that. I think NAFTA, we got the dairy issue, 
and hopefully, we will get other things in NAFTA from----
    Senator Heitkamp. I think there is some concern that the 
dairy will not be taken care of in NAFTA.
    Secretary Perdue. I have concerns as well----
    Senator Heitkamp. Yes.
    Secretary Perdue [continuing]. as well about that, but we 
continue to advocate on that, on that behalf.
    I think, again, I have listed some of the examples that we 
have been successful, even this year, in light of that, but we 
will continue.
    I do believe that the President understands the 
contribution of the ag economy, and I think he understands the 
legitimate anxiety that is out there about that. We have got to 
look at the end of the road.
    Senator Heitkamp. Just with my short period, I mean, I 
understand that, and I think that the addressing of the E15 
problem was probably to try and stabilize some of the things 
that are going on. But yet we run into a roadblock at EPA. We 
have got to get these things done, and we got to get them done 
sooner rather than later, or we are going to see a dramatic 
effect on commodity prices at the same time that we are 
challenged with weather in my State and I think weather across 
the board.
    So I want to tell you that I am so incredibly grateful that 
you are there because I know you are a thoughtful, fierce 
advocate for American agriculture. We need to step it up here, 
and we need to continue to beat the drum right from this 
Committee and from Congress on how important agriculture is to 
the future of this country. But I want to thank you because I 
know you are doing your best.
    Secretary Perdue. Thank you, and I would welcome all the 
help we can get.
    Chairman Roberts. Senator Ernst.
    Senator Ernst. Thank you, Mr. Chair, and thank you, 
Secretary Perdue, very much for your advocacy. I certainly do 
appreciate it.
    As many of my colleagues have Stated, the ag industry, 
extreme importance to us, and we are in uncertain times, truly. 
So, again, I want to thank you for being such a great advocate 
and voice for our farmers and ranchers.
    They are working around the clock for all of us, and we 
know that in the morning, they face certain adversity. In the 
evening, they are looking at a lot of anxiety. So the stressors 
that are with our farmers and ranchers, day in and day out, is 
really unprecedented in recent history.
    So I know a number of colleagues have talked about the RFS. 
They have talked about trade. I am going to dive in a little 
bit more because I know Senator Klobuchar, I think, addressed a 
piece of the RFS.
    We were at the table a couple weeks ago with the President, 
a roundtable situation, and I appreciate the input that you 
have been able to give to President Trump. But there is a 
concern with EPA Administrator Scott Pruitt and the small 
refinery waivers, and I am very, very upset about this action 
that the Administrator has taken that would destroy our demand 
for biofuels. The moves that he is making will ultimately kill 
the RFS, and the EPA has granted about 25 small refinery 
hardship waivers.
    Some of these refineries are neither small nor facing 
hardships. So these waivers to me are unacceptable, and last 
week and again today, you agreed that these waivers, like the 
one Andeavor received, constitute demand destruction for 
biofuels.
    So what will you do specifically to ensure that the EPA is 
not deliberately circumventing the RFS?
    Secretary Perdue. Well, Senator, you know statutorily, I do 
not have any kind of hammer. What I do have is the power of 
persuasion with the Administrator and the President to make 
sure that they are aware that we are aware--and we had to dig 
pretty deeply to get the number of gallons that had been waived 
this year--and with the President and his team, let them 
understand how the instructions that he was given last fall 
over maintaining the RVO obligation at 15 billion gallons has 
essentially been circumvented by the waivers. That is what it 
is.
    We have no legal statutory authority to do anything other 
than that, other than letting the administration know, as well 
as the Administrator know, that our farmers and our biofuel 
producers are very concerned about that.
    Senator Ernst. Mm-hmm. Well, and I do appreciate that and 
the power of persuasion that we do have, and of course, letting 
the administration and Administrator Pruitt know how displeased 
we are in that area, especially when he made the commitment to 
me specifically to uphold the intent in the letter of the law. 
I do believe that he is trying to work his way around that.
    During our conversation at the White House, the President 
also offered up support for E15 year-round, which would address 
refiner concerns over RIN prices, while also increasing biofuel 
demand, and thank you for the role that you have played again 
in that. I think that will be very important if we can move 
that forward.
    Have you spoken with Administrator Pruitt regarding the E15 
waiver--the RVP waiver year-round? Have you spoken with him 
recently, and how is it that we can move ahead with that?
    Secretary Perdue. Multiple times. Obviously, the 
Administrator's position was his concern over RIN prices. My 
words to him is these waivers have been the anecdote to RIN 
prices in what he has already done. So I would encourage him 
and actually exhorted him to do the E15 waiver, as I have the 
Administrator--the President.
    The President will probably make that call, and you heard 
what his statement was in the meeting which we attended. I am 
encouraging the President to go ahead and make good on that 
commitment to do that, while letting the industry, the 
petroleum industry know that the waivers granted had been the 
essence of any kind of RIN cap, an effective RIN cap that they 
have enjoyed this year already.
    Senator Ernst. Yes. I appreciate it. Thank you.
    My time is expiring, but, Secretary Perdue, thank you for 
being such a great advocate. I appreciate your many, many 
conversations with us and with the administration. Thank you.
    Chairman Roberts. Senator Bennet.
    Senator Bennet. Thank you, Mr. Chairman. I appreciate very 
much the hearing.
    Mr. Secretary, 13 months ago during your confirmation 
hearing, I told you that if you could break the Gordian knot of 
fire funding, you would be a hero in Colorado. Now 1 year 
later, the Forest Service is moving forward with 8 years of 
budget certainty, starting in 2020, that will unlock resources 
for hazardous fuels treatments in wildfire mitigation projects. 
I want to bring you the thanks of a grateful State for your 
work.
    The omnibus package also included several new forest 
management tools that build on our work in the last Farm Bill. 
It provides more flexibility for stewardship contracting that 
can spur job creation and expands good neighbor authority to 
restart stalled forest health projects.
    Nevertheless, there are millions of acres of unfinished 
NEPA-approved hazardous fuels projects in the West. I wonder 
whether you could tell us whether the resources will be 
unlocked to deal with those projects and if you could describe 
the steps the Forest Service is taking to implement these new 
forest management tools.
    I thank you again for your leadership.
    Secretary Perdue. Well, I want to thank you and your 
colleagues for giving us the opportunity. The ball is in our 
court now regarding what we are going to do with those 
authorities that you have given us, from forest management as 
well as a certainty of funding where we do not have to take 
from the forest budget to fight fires.
    We know this year is looking like it may be another serious 
fire, funding with some of the droughts in the Southwest 
beginning. Unfortunately, it probably will move up California 
and up your State as well. But we want to deploy these 
resources as quickly as possible.
    Obviously, fire load, fuel load, management thinning, the 
multiyear contracting will give us an opportunity to help 
rebuild an timber ecosystem that depends on harvesting and 
marketing in a way that is the ultimate solution for healthy 
forests, whether it is recreation, whether it is wildlife, or 
just hiking. All these things are important, and we are 
committed to putting the resources back on the ground to get 
those things done.
    Senator Bennet. Sometimes around this place, it seems like 
months, sometimes years go by without anybody actually getting 
anything done that is useful for the American people. So I want 
to congratulate you that in your first year, you were able to 
do something that for some reason has eluded us for a long 
time, and it will really make a difference if we can help you 
from Colorado. I hope you will let me know.
    I heard that Senator Perdue mentioned the issue of 
immigration while I was out of the room. I had a meeting 
earlier this year, just a couple months ago in Greeley, where I 
had two different fruit and vegetable growers hand me flyers. I 
have them here.
    Actually, Mr. Chairman, I would like to ask that they be 
included in the record.
    Chairman Roberts. Without objection.
    [The following information can be found on page 46 in the 
appendix.]
    Senator Bennet. Thank you, Mr. Chairman.
    Flyers advertising the sale of their equipment. One of the 
farmers runs an operation started by his father in 1944 that 
had grown sweet corn for over 70 years, but last month, he 
stopped growing sweet corn and auctioned off his equipment. He 
said he was forced to throw away perfectly good produce because 
he cannot find the people to harvest it. The farmers in that 
room said the best they can do is just steal from each other.
    We have dairies in Colorado that I am afraid are going to 
have to shut down, and all of it stems from the immigration 
policies of this administration. All of it stems from the 
President's harmful rhetoric around information.
    I know you answered the question. If you have got an answer 
to what I have said, I would be pleased to have it, but I want 
you to know that in real time, at these commodity prices, we 
are destroying the livelihoods of farmers in Colorado because 
of the immigration policies of the United States.
    I would ask that you take this to the President so that he 
can hear from the voices of people in farm country in Colorado 
about what the real effect is.
    I do not know if you want to comment on that or not, Mr. 
Secretary, but I certainly----
    Secretary Perdue. Well, obviously, we have told you that is 
one of the top three things we hear continually. These 
examples, unfortunately, are not limited to Colorado. You see 
them across the country, people having to make decisions 
because they cannot find the labor.
    This is a comprehensive immigration issue. We, most of all, 
want a legal farm work force for America. Farmers want that. 
They do not want to be looking over their shoulders. They do 
not want to be in the shadows. So, hopefully, we can get that 
done sooner rather than later.
    Senator Bennet. Well, I would--I have 30 seconds left. I 
would commend to you, Mr. Secretary, the work that was done in 
2013. I negotiated a bill with Senator Rubio from Florida, 
Senator Hatch from Utah, Senator Feinstein from California. It 
was the first ag jobs bill that was ever--it actually gave the 
Secretary of Agriculture the authority to house the farm 
program on immigration, which I think would be a step forward, 
and I hope you will maybe look to that for guidance.
    Final point, Mr. Chairman, I will make, just to reiterate 
the points you have made on trade. We had a conversation with 
Mr. Lighthizer in the Finance Committee where he said our 
farmers and ranchers, when I raised this, had his 
``sympathy''--that was the word he used--because he knew they 
would be the first people retaliated against if we do not have 
the successful trade resolution, and I said to him, ``We do not 
need your sympathy. We need you to act responsibly.'' I know 
you will be a voice for responsible behavior when it comes to 
our trade policy, and I hope you will count on this Committee 
to help you do that.
    Thank you, Mr. Chairman.
    Secretary Perdue. Thank you.
    Chairman Roberts. Thank you, Senator.
    Just from a historical perspective, a bill very similar to 
yours was introduced in 1996 by a Congressman from Kansas, as I 
recall, and we lost it by one vote. If you had just been there 
at that particular time, a lot of this would not have been 
necessary.
    Senator Bennet. I apologize.
    [Laughter.]
    Chairman Roberts. Senator Fischer.
    Senator Fischer. Thank you, Mr. Chairman.
    Mr. Secretary, welcome.
    As you are well aware, there is a lot of anxiety in farm 
country. In Nebraska, one in four jobs are tied directly to 
production agriculture. We have seen current net farm income 
down 50 percent in the last 5 years, coupled with this 
uncertainty that is surrounding our international trade and the 
RFS. Farmers and ranchers are feeling scared, and they are 
feeling vulnerable.
    So it is imperative that we provide them the necessary 
tools and technology that allows them to provide for their 
families and to protect their livelihood.
    Two weeks ago, you and I sat together in the Cabinet room 
at the White House, and we were directly across from President 
Trump. We discussed the importance of international trade to 
rural States like Nebraska.
    In 2016, Nebraska was the fifth largest agricultural 
exporting State in the country, exporting nearly $6.6 billion 
in agricultural goods. So the access to those foreign markets 
is clearly important. It is imperative to our State.
    I was also very pleased to recently host Under Secretary 
Ted McKinney in Omaha at the very beef plant that sent the 
first shipment of U.S. beef to China. Nebraskans understand 
accessing new markets provides a trickle-down effect for growth 
opportunities in numerous sectors across our economy.
    I know we have talked a lot about trade today. We continue 
to talk about it every single day, the importance it has for 
our agricultural communities, but I would like to ask you, sir, 
what actions is the USDA taking to promote foreign market 
development and access because we do have opportunities there 
in your Department.
    Secretary Perdue. Sure. As you mention your delight in 
being with Under Secretary McKinney, he had not just been in 
Nebraska. He has been around the world, India twice, Japan, 
China, Indo-Pacific region, really knocking on doors. I view 
him as our chief salesman around the world, and we have got a 
lot of products to sell actually that people want. The 
challenge is knocking down those protectionist barriers in many 
countries, such as India we were just talking about and other 
places. But we have got to be very aggressive.
    We really, probably from a business perspective, should not 
be that reliant on China alone, anyway, but we want to go 
around the world. He has been to the western hemisphere and 
South America as well as all of the eastern hemisphere looking 
for sales.
    Senator Fischer. Which is helpful.
    Do you see any programs that you have in the USDA that you 
specifically believe we need to be focused on to increase that 
foreign market development?
    Secretary Perdue. I think one of the things that you all 
did in the omnibus that was helpful was the MAP program, or 
Market Access Program. These deal with collaborators and 
various industries. Many times, they are matching these from 
1:1 to 7:1 over in-country types of representatives to help 
keep the U.S. products in the forefront all the time, and 
certainly the market development programs as well. Both of 
those are very helpful as we try to buildup capacity and the 
opportunity to promote U.S. products around the world.
    Many people feel like we are still at a disadvantage, that 
other countries are doing more, but we are utilizing those 
funds and leveraging them as much as possible.
    Senator Fischer. Also at the meeting that you and I were at 
with the President, he did bring up E15 to be sold year-round. 
I know many members here today have already expressed concern 
about where Administrator Pruitt is headed on that. I would 
echo Senator Ernst's words to you just a few minutes ago about 
the Secretary's commitment that he gave to her. He also gave 
such a commitment to me that he would uphold the letter of the 
law.
    We will continue to advocate to the President on that 
situation. I thank you for your information that you provide to 
the administration about, first of all, following the law and 
what the law is with concern to the RFS. It does not expire 
until 2022, and many of us here know that and will continue to 
bring that to everyone's attention. But also, we appreciate the 
information that you give to the President on that.
    I have got to welcome you to our ranch about a year ago in 
May, May 20th, woke up to snow on the ground, and we had a 
great meeting with many of our neighbors. You got to see the 
Nebraska Sand Hills, and we need you to come back.
    But if you remember at that meeting we had in our barn, we 
had a lot of people soaked to the skin because it was pouring 
rain at the time too. But I asked you to open up your phone to 
see if you had cell service, and you did not. We do not have 
cell service at our ranch and in many places across the State 
of Nebraska in these rural areas where we have a sparsely 
populated group.
    But I would stress to you the importance of broadband 
deployment and ask you what the Department is doing to help see 
that brought to fruition through many, many rural areas across 
America, but there are urban areas that need it as well. So 
what are you looking at?
    Secretary Perdue. Well, Senator, we appreciate the $600 
million that was placed in the omnibus that will give us an 
opportunity to develop pilots with the idea of not a 
concentrated laser focus, but pilots that demonstrate how this 
can be deployed across the United States. It is not going to be 
done for $600 million, but we hope to use that as money to 
optimize and to leverage other money from the private sector, 
be they rural utility co-ops, rural telephone co-ops, or the 
private sector in order to reach areas like yours that depend 
on broadband connectivity.
    It is the interState highway of the 21st century, and we 
are going to continue to see rural demise and demographic 
changes in those areas if we do not provide those kind of 
amenities.
    Senator Fischer. Thank you, sir.
    Thank you, Mr. Chairman.
    Chairman Roberts. Senator Gillibrand.
    Senator Gillibrand. Thank you, Mr. Chairman.
    I want to continue along the line of questioning that my 
colleague started because obviously rural broadband is 
absolutely necessary for our farms to compete to sell their 
products worldwide, to submit their Federal forms, and it is 
very, very troubling that lots of swaths of this country do not 
have access to this basic human need.
    I have introduced bipartisan legislation amending the Farm 
Bill to include a grant program for rural broadband deployment 
that would be used in conjunction with the USDA's rural 
broadband loan program. Do you believe that such a grant 
program is needed as part of the reauthorization of the Farm 
Bill?
    Secretary Perdue. I would like to see the details, Senator. 
I think, again, we believe in grant--loan programs seem to have 
been the most effective in the past in doing that. So I am a 
believer in skin in the game. I think people who have 
investments in their community and the passion to get that done 
through a loan-grant combination would be most effective.
    Senator Gillibrand. Well, typically grant programs do not 
pay for the full cost, so it is always a skin-in-the-game 
process. It is just to pay back loans for rural communities is 
sometimes unaffordable, and so the broadband does not get 
built. So if you can match, matching funds is sometimes much 
better than just straight-up loans.
    Secretary Perdue. I understand.
    Senator Gillibrand. So it is not a lack of skin. It is just 
a different way to deliver support.
    Secretary Perdue. Well, I understand that.
    You mentioned grants. Grant is a--again, I think what we 
are really talking about are loan-grant combinations.
    Senator Gillibrand. Yep. Thank you.
    Turning to dairy, we talked a lot about dairy in your 
confirmation hearing, and one of the questions that I asked you 
to come meet with some of our dairy farmers, which I will 
extend again.
    Milk prices have fallen another $2.24 in the past year, and 
some New York farmers are seeing $13 in their milk checks. I 
hope you will come to New York to meet with some of our smaller 
producers so you can see and understand why these pricing 
programs are not working and why the insurance programs are not 
working for small dairy farms in America today.
    Secretary Perdue. I promise you I will be back. I am not 
sure why we were not able to connect last year, last summer 
when I was there, but I did have the opportunity to go to Kings 
Dairy in New York, a very innovative dairy that were doing 
things. I went to another smaller dairy there to see them, but 
the challenges still remain, the oversupply of fluid milk along 
with the unfair trade practices, your neighbor to the north in 
Canada, create a real emergency in the dairy business.
    I think what you all did in the MPP and the recent act will 
help, although I think there is probably some other things that 
need to be done in the Farm Bill.
    Senator Gillibrand. So another idea for you is to do what 
you did for dairy with what you did for cotton. As you know, 
you used your authority to restart the cotton ginning cost 
share program. Cotton and dairy often go together in funding 
discussions, as they did in the 2018 continuing resolution.
    Given the extraordinary strain on our dairy farmers, surely 
they deserve the USDA's support as well. Will you and your 
staff present me with a plan to stabilize and support milk 
prices and dairy farmer income by the end of next month? I am 
particularly interested how you can use existing authority 
under the charter of the Commodity Credit Corporation to 
provide some relief.
    Secretary Perdue. The problem economically is the dairy 
industry is much more widespread, and the problem is much more 
severe from a market perspective.
    We have tried to use Section 32 in the FAS, and it has a 
very limited effect on market prices. We have an oversupply of 
milk that the industry has to work through in that way to 
really stabilize prices, but I can assure you, USDA will do 
what it can in order to support the dairy industry.
    Senator Gillibrand. Some of the oversupply issues, though, 
do relate to trade, and so I hope you can look at this issue.
    Adding to the strain on New York dairy farmers is the loss 
of the Canadian market for ultra-filtered milk. You spoke about 
trade with members of the Senate Agriculture Appropriations 
Subcommittee 2 weeks ago, and I would appreciate an update.
    What is the current status of NAFTA negotiations to reopen 
access to the Canadian market for UF85 milk, and do you feel 
confident that the U.S. Trade Representative will be successful 
in eliminating the Ontario Class 7 pricing scheme?
    Secretary Perdue. Well, I am optimistic we will get a NAFTA 
discussion. I do not know how optimistic I am regarding the 
dairy conclusion to our liking in that area. We continue to 
mention that to Ambassador Lighthizer regarding dairy and to Ag 
Representative Doud in that regard. That is one of the issues, 
as you mentioned, the Class 7 milk.
    Canada has a managed supply system. They have been allowed 
to over-manage and allow their producers to depress world 
prices and really knock out the ultra-filtered market.
    Senator Gillibrand. Mr. Secretary, my last issue is SNAP. I 
am very concerned about the House bill. I am very concerned 
that you support it, and I will explain why.
    The House bill says we want to make sure there is more 
stringent work requirements. Most people on SNAP are already 
working. In fact, if you look at the entire recipients of SNAP, 
less than 5 percent are able-bodied who are not working. You 
know job markets in some communities are very difficult to find 
a job and get a job.
    So I want you to look at this issue again. The thing about 
the House bill is the required paperwork. They are requiring 
that you certify that you are working every month. If you 
require people to certify every month that they are working, 
all you will do is assure more people who deserve it and need 
it will not get food stamps because they will stop going in to 
do their monthly report.
    Paperwork requirements are stupid. So please relook at 
that. We would like to change that in the Senate version of the 
bill. You are just pushing people off of food stamps because 
they are not filling out their paperwork, not because they are 
not working.
    Secretary Perdue. Senator, I think you probably know we did 
not write the Farm Bill for the House.
    Senator Gillibrand. I know.
    Secretary Perdue. We provide them information, just as we 
would you. I think, again, our data shows 9 million able-bodied 
working adults not working there. So we will be happy to 
compare numbers with you in that regard.
    But again, I think the education and training--I believe 
the Supplemental Nutrition Program ought to be a ramp up out of 
dependency, not a permanent lifestyle, and whatever we can do, 
both in the version that you all pass and as it is reconciled 
with the House, then we are going to implement to the best of 
our ability.
    Senator Gillibrand. Thank you, Mr. Chairman.
    Chairman Roberts. Cindy, we already introduced you, so this 
will be the second time around. I would like to now officially 
welcome Senator Hyde-Smith to the Committee. We are glad to 
have another farmer, a former State Agriculture Commissioner, 
at the table, and we will all benefit from your perspective. 
You are recognized.
    Senator Hyde-Smith. Thank you, Mr. Chairman, for convening 
this important hearing to discuss rural America with 
Agriculture Secretary Sonny Perdue, and I am honored to be 
here, honored to serve on the Committee, look forward to 
working with you and the Ranking Member Stabenow and all the 
distinguished members of this Committee.
    Mississippi has been well represented on the Senate Ag 
Committee for many years now, and I truly am grateful of this 
opportunity because obviously Mississippi's Number 1 industry 
is agriculture. It employs roughly 30 percent of the State's 
work force and contributes more than $7.5 billion to the 
economy on an annual basis.
    As the Committee continues to work on the 2018 Farm Bill, I 
look forward to making many meaningful contributions, 
hopefully, that will result in responsible farm policy that 
meets the American needs of farmers and ranchers.
    Secretary Perdue, I just want to thank you again for 
appearing here before this Committee. I appreciate what I 
consider your very good leadership over the past year as Ag 
Secretary and the strong commitment you have shown to our 
Nation's farmers, ranchers, and overall quality of life in 
rural America.
    On behalf of the Mississippi farmers, I would like to thank 
you for two things in particular--USDA's elimination of the 
regulations that were burdensome to us and the cotton ginning 
cost-share program assistance for cotton producers. These 
actions alone have made just a tremendous impact on Mississippi 
farmers and the ability to maintain business and continue 
producing the high quality of food and fiber in this world.
    But in the light of time, I just want to hit on a couple of 
things. The broadband issue obviously is a concern to 
Mississippi as well, and we are excited about the funds that 
were put in the appropriations bill for that because technology 
is so important to us. We have equipment that breaks down in 
the field, and when you can go online and get that repair done 
online instead of waiting 2 days for a part to be shipped or 
more information to be transferred, that is very important to 
Mississippi.
    The farm safety net, USDA projects over the next 10 years 
that commodity prices for most crops will remain below the 10-
year average, and as you know, the Price Loss Coverage program 
established under the 2014 Farm Bill is designed to provide 
assistance to producers when prices are low.
    Given USDA's future price projections, do you think it is 
important to maintain the structure of the Price Loss Coverage 
program and ensure that the 2018 Farm Bill does not weaken PLC 
program assistance in any way?
    Secretary Perdue. I do. I do believe that probably that 
we--the PLC program will be chosen by more farmers and the 
opportunity for them to switch from the ARC, the PLC is very 
important for their planning and safety net.
    Senator Hyde-Smith. Great.
    The President's infrastructure plan, I was pleased to learn 
that a large portion of the President's infrastructure plan is 
intended for rural America, and there is a great need to 
rebuild roads, bridges, and provide affordable utilities in 
many parts of rural Mississippi. Can you elaborate on the 
potential benefits that the President's infrastructure plan may 
bring to rural and underserved areas in our country?
    Secretary Perdue. Well, obviously, you mentioned some, but 
some you may not have mentioned were the inland waterways that 
your State participates in and all that commerce that drains 
the fertile Heartland of American down through your State to 
the ports there that are--or New Orleans that are extremely 
important in that way.
    So we want to make sure our ports and our inland waterways 
that support the ag commerce are also included as well as 
broadband.
    Senator Hyde-Smith. Thank you so much.
    Chairman Roberts. Senator Casey.
    Senator Casey. Mr. Chairman, thanks very much.
    Mr. Secretary, good to have you here. Thank you.
    I have been in and out of the hearing this morning. I know 
a number of members of the Committee have raised issues that 
relate to broadband and in particular rural broadband.
    I live in a State where we have 67 counties, but 48 of them 
are rural counties. In those rural communities, the last number 
that--and this gets updated, as you know, by the FCC, I guess 
on an annual basis. The last number I saw was 471,000 rural 
Pennsylvanians--just rural Pennsylvanians--do not have access 
to high-speed internet. So it is a huge problem.
    It is a problem in the context of small businesses, 
obviously, in the context of the ag economy. It is also a 
problem for children in schools that happen to be in rural 
Pennsylvania, and I know you understand that.
    It is positive news that the $600 million initiative was 
passed for broadband grant, the broadband grant and loan pilot 
program, to be administered by the Rural Utilities Service. We 
are grateful that happened for so-called unserved as opposed to 
underserved, and all the terminology is important here.
    But what I wanted to ask you was in particular--and I know 
you are developing--you are in the course of developing a 
framework for the pilot program. Can you discuss, A, your 
priorities as you are developing these rules, and B, the 
timeline that you have in mind for issuing the rules and 
accepting applications and then disbursing funds?
    Secretary Perdue. Last question first. Sooner rather than 
later. We do not move very fast sometimes in Washington, but 
this is important. We want to be very quickly about utilizing 
and deploying that $600 million in a way that pleases you all 
so you will give us more, and the strategy behind that is to 
use partners, whether we go with rural electrical co-ops, rural 
telephone co-ops, or private sectors or communities.
    The person that we have chosen to administer the Rural 
Utilities Service program and rural development was an 
executive, chief executive in a rural co-op in Missouri that 
laid 3,000 miles of fiber serving their customers without any 
Federal help. So we are hoping that we can take in these--and 
the statute specifically said ``unserved.'' So we are going to 
do it without duplication in those areas that are a priority.
    We will accept a request for proposals here very soon. I 
think our people told me the other day that it would be June. 
So, hopefully, we will have a program out and designed, where 
we can begin taking applications and get that money on the 
ground.
    Senator Casey. I appreciate that.
    Then just on the priorities itself, I mean, just what you 
hope to achieve by the implementation pilot program.
    Secretary Perdue. Well, to demonstrate that this can be 
done in less dense areas in an economically sustainable way. We 
do not want--I am not looking for an episode of success. I am 
looking for a sustainable model, pilot project to demonstrate 
this is long-term sustainable through subscription fees in an 
affordable way. So that would be one priority.
    Senator Casey. Well, I appreciate that.
    I know as we work to come together on a Farm Bill, one of 
the areas we are going to be concentrating on--and I will give 
you maybe a statement or a question for the record on this--is 
the Conservation Reserve Enhancement Program, so-called CREP. I 
will give you a fuller statement and a question on that because 
I know we are running out of time.
    I did want to ask you about the opioid crisis. I just left 
a hearing in the Health, Education, Labor, and Pensions 
Committee. We marked up a huge new piece of legislation on the 
opioid crisis. It is a great produce, bipartisan, and probably 
because it is bipartisan, it is an indication of how grave the 
problem is.
    The horror of opioids in my State, as it is true I am sure 
of a number of States, it is very bad in urban areas and 
suburban areas. It is actually worse in rural areas, at least 
by the measurement of overall overdose deaths compared from 
1915 to 1916. 1916 to 1917, we do not have complete numbers 
yet, but just the overdose death rate.
    So I would ask you about that in a broad context, in the 
context of your concerns about folks living in rural America, 
rural Pennsylvania.
    But in particular, what would you hope would happen as part 
of the Farm Bill if we have an opportunity in that bill to 
address the opioid crisis or beyond the bill itself? What would 
your hope be? New policy or improved policy on the opioid 
crisis?
    Secretary Perdue. Well, as you have mentioned, Senator, 
there is a lot of despair in rural areas, and it is one of the 
drug epidemics that did not miss rural America. We see that by 
the avenue of prescription drugs and other types of ways.
    Farming is not a safe industry. There are medications used 
out there that sometimes lead to opioid addiction, and we would 
hope that we would have the opportunity to participate through 
rural development in mobile treatment centers, rural-type 
treatment centers, where sometimes there is also a lot of pride 
in rural America, where they do not want to go to a center. But 
we have got to go where they are. So those are the kind of 
authorities that we think from USDA could help in conjunction 
with HHS.
    We have no core competency in the treatment of that, but we 
also have equity in getting that treatment to the people.
    Senator Casey. Mr. Secretary, thanks, and I will send that 
question for the record.
    Thank you, Mr. Chairman.
    Chairman Roberts. Senator Grassley.
    Senator Grassley. I will bet you understand that ethanol is 
pretty important in Iowa, and I am probably the--every member 
has probably asked this, but you have been very helpful to us 
on the Reid vapor pressure thing and E15, and I just wondered 
if you had any insight into when the program might be put in 
place so that we would be able to sell E15 every month out of 
the year.
    Secretary Perdue. I wish I did, Senator. You heard the same 
thing that I did, and I felt like the President was prepared to 
move. Probably some other voices have spoken in his ear since 
that time, but I want to encourage him and--we all could 
encourage him to move forward on that. I believe that is 
ultimately the answer over building demand as well as lowering 
RIN prices here that could have an effect.
    We have talked about the waivers that have been issued as 
well. We think that is really the answer to RIN prices. They 
have already seen them come down, and there has been some 
demand destruction there that we want to see restored back up 
to 15 billion gallons.
    Senator Grassley. I want to visit about trade, and it 
involves China and what sort of a problem that might be for 
agriculture. I surely appreciate the President's leadership on 
this whole thing of trying to get a more level playing field 
with China on trade.
    I was one of five Members of Congress that went to China 3 
weeks ago, and I came away with what I think we already know, 
that China will do anything moral or immoral or ethical or 
unethical or legal or illegal to get ahead of the United States 
and to stay ahead.
    Also, I think that we are somewhat oblivious to the cunning 
relationship they have with us, to think that they are friendly 
and want to work with us and everything, but I think that is 
how they operate, and that we are not attuned to some of their 
conceit.
    So the President has his program of brinksmanship, and when 
you get to the brink, if you do not go over, he may be 
successful. But if he is not successful, then we know that 
agriculture is usually the first to retaliated, not just 
because of Trump, but that was true of George W. It was true of 
Reagan. It was true of Carter. So it is a pattern that we know 
is a fact of life.
    So could you share any details on how the assistance that 
the President has alluded to, to help farmers, if prices drop 
dramatically because of going over the brink, how it would be 
administered, this sort of assistance that they have talked 
about in a very general way?
    Secretary Perdue. We have purposely been general, Senator, 
not to keep from you, but obviously from the people that you 
just described who do not play fair. We are not sure that it is 
good to lay out the playbook.
    We all are aware--the press has reported--some of those 
authorities have to do with Section 32 and the CCC authority we 
are given here. We have got to be very careful in how we 
administer that, though, because farmers, as you know, would 
rather have a fair prices for a good crop than a Government 
check. So we do not want to set a precedent of expectation that 
we cannot live up to.
    We are trying to evaluate this on a weekly basis, what is 
the trade dispute damage out here and when do we act. Sorghum 
probably is at the tip of the spear right now with the recent 
178.9 percent tariffs that way, and we are meeting with the 
sorghum people, trying to determine what are the long-term 
effects.
    Pork, important in your area, dropped down, but it has also 
come back up a little bit. So we are trying to see what are the 
longer-term effects.
    My economists tell me they have models that can tell them 
what is the impact of the specific trade disruption, and that 
is what we want to account for, not just regular market forces.
    Senator Grassley. Thank you, and I will yield back my time.
    Thank you, Mr. Secretary.
    Chairman Roberts. Senator Brown.
    Senator Brown. Thank you, Mr. Chairman.
    I guess today is your 1-year anniversary of being----
    Secretary Perdue. It is, indeed.
    Senator Brown [continuing]. Secretary of Agriculture. 
Congratulations, Mr. Secretary.
    Thank you for visiting my State earlier this month. We are 
proud of our agriculture sectors. I think everybody in this 
Committee would say that about their State.
    I am particularly pleased that you visit Central State 
University, the Nation's newest 1890 land grant. It was a long 
time coming. It should have happened earlier. President 
Jackson-Hammond and her team are making us proud, so it meant a 
lot, substantively and symbolically, that you went there, so 
thank you for that.
    At your confirmation hearing, we talked about one of the 
most pressing agricultural and environmental issues affecting 
my State of Ohio, and that is harmful algae blooms in the 
Western Basin of Lake Erie.
    As I pointed out, Lake Erie, near Toledo, is only 30 feet 
deep, contrasted with Lake Superior being 60 feet deep, and 
Lake Superior is fed by mostly forested land. Lake Erie in the 
Toledo Basin is fed by the largest drainage basin, if you will, 
4 million acres with lots of agriculture, lots of people, lots 
of commercial and industrial development.
    Between a combination of programs like USDA and EPA and the 
GLRI, we are making strides. There is obviously still much to 
do, yet efforts in the House to slash conservation funding in 
the next Farm Bill will not help Ohio farmers, most of whom are 
committed to significantly reduce runoff, and they rely on the 
longstanding partnership with NRCS and FSA. You know all this. 
I wanted to emphasize it.
    Senators Ernst and Grassley and Casey and I recently 
introduced the GROW Act to make a number of improvement-to-
conservation programs. The part of the bill that holds 
significant potential for improving water quality in Lake Erie, 
the shallowest lake, is the Clean Lakes, Estuaries, and Rivers 
program to better target CRP spending in the continuous 
program.
    The USDA already has some authority to implement these 
targeted practices today. My first question is, what is USDA's 
plan to implement these targeted practices in the Western Basin 
of Lake Erie, and does the administration support codification 
of the CLEAR program?
    Secretary Perdue. Well, certainly our educational programs 
and nutrient management and helping with detection---we were at 
Penn State, and there is some new technology coming on over 
being able to have on the farm, measurements of phosphorous and 
nitrogen runoff from there. Cover crops and no-till practices 
and those kinds of things is what NRCS is working on, our best 
conservation efforts, and help to reduce the nutrient runoff 
into the waterways.
    Senator Brown. Okay. We thank you, and we need your strong 
voice and continued support on that, on conservation program 
funding.
    On GLRI, the administration is--well, made more than 
noises--has attempted to cut GLRI. Senator Portman and I and 
other Great Lake Senators, including around the table, in both 
parties have fought back against it.
    In 2016, I worked with Senators Donnelly and Stabenow and 
USDA on a special initiative in the Western Lake Erie Basin. 
The program targeted producers who wanted to take steps to 
reduce runoff at their farms.
    It is my understanding that funding for this program has 
ended. We cannot walk away. Will you commit to finding 
additional resources for this critical water quality program?
    Secretary Perdue. I will commit to looking.
    Senator Brown. Okay. Looking really aggressively?
    [Laughter.]
    Secretary Perdue. Very aggressively, Senator.
    Senator Brown. All right. It is important. As I said, it is 
important on this side of the table. Senator Donnelly has part 
of Lake Erie, and Senator Stabenow has four of the five Great 
Lakes in her States.
    Senator Stabenow. That is right.
    Senator Brown. Last question----
    Secretary Perdue. My answer is limited by the fact that I 
do not know what the quantification of that dollar is worth. I 
will have to look at that and see.
    Senator Brown. Okay. We will follow up.
    Secretary Perdue. We do not want to lose out or drop back 
from where we were moving in the momentum.
    Senator Brown. Okay. Last question. You have talked about 
improving customer service. I know you want to. I know, though, 
that it has not exactly worked that way, dozens and dozens of 
unfilled positions in Rural Development and FSA and NRCS in my 
State. Senator Stabenow has mentioned similar problems in 
Michigan. I have held roundtables. I do a lot of ag 
roundtables. Jon McCracken in my office has done dozens of them 
this year alone. We always do that in preparation for the Farm 
Bill, he and I both, and it has taken longer.
    We hear from farmers to get contracts approved, it has 
taken longer for farmers to get someone out on their farm, when 
that was not a problem not that long ago.
    With the new improvements to the dairy program, which 
matters in a lot of our States, we need staffs in these offices 
that have the expertise and knowledge to make sure family farms 
stay in business. You know all that.
    So how do we square longer wait times or farmers not 
deciding--deciding not to participate in these programs with 
your touted improved customer service? How are we--when are 
these vacancies going to be filled?
    Secretary Perdue. We are moving on that, Senator. I am not 
sure the situation is quite as dire as you describe because we 
get feedback continually over our offices. We hear a lot of 
conversation from our employees about needing more help, but we 
do not get that much directly from farmers. I am out here 
asking on a continual basis in that regard.
    I felt compelled to wait until we had an Under Secretary in 
place to give me a strategic hiring plan about where we needed 
people, the right people, the right place, the right time in 
that, and we have agreed. We have authorized that. You will see 
those positions being filled.
    But if you find, if you have specific constituent 
complaints about not feeling like they are getting customer 
service, I want to know about them, and we will deal with them 
directly and personally.
    Senator Brown. I will hand them over. Thank you.
    Chairman Roberts. Senator Donnelly.
    Senator Donnelly. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary, for being here.
    In your testimony, you mentioned the importance of quality 
of life to rural communities, and that means a lot of things--
high-quality schools, good infrastructure, high-speed 
broadband, but also access to health care and increasingly 
access to prevention and treatment for addiction.
    I have been working on trying to address health care 
provider shortages in underserved areas with Senator Murkowski, 
and I partnered with a few members of this Committee, including 
Chairman Roberts, on a trio of bills that would help direct 
several USDA programs to ensure we are taking advantage of 
USDA's ability to reach directly into rural areas and provide 
the resources they need.
    We made some progress on this front in the recent 
Government funding bill. I want to thank you for your agency's 
speedy efforts to start trying to get these resources to our 
communities in a timely manner.
    I want to ask you for your continued commitment to 
addressing this issue, to work with us as we write a Farm Bill 
that ensures USDA can continue to use the Communities 
Facilities Program, Telemedicine and Distance Learning program, 
and Rural Health and Safety Education grants to address the 
scourge of addiction.
    Can we have that commitment from you, Mr. Secretary?
    Secretary Perdue. Yes, sir. We are very serious about rural 
quality of life and rural prosperity.
    Senator Donnelly. This is a dagger to the heart of every 
family that it affects and to every community, and your 
assistance is critically important.
    You also mentioned in your testimony the importance of 
consistent and practical regulations, which is an idea I have 
been emphasizing during my time on this Committee.
    I want to highlight for you one area where I think more 
consistent regs are needed, and that is with crop insurance and 
conservation.
    In Indiana, we are proud of the work Hoosier farmers are 
doing to implement voluntary conservation practices like cover 
crops, which improves soil health and water quality.
    You and I both know that farmers have every incentive to 
keep their inputs on their fields and ensure their farms are in 
good shape so they can hand it over to the next generation.
    Right now, however, it is entirely possible, even if it 
does not happen frequently, for a farmer who is doing things 
like cover crops, even if they are following NRCS guidelines, 
to receive a deduction in their crop insurance, and I am sure 
we both agree that following proven and accepted conservation 
activities should not put a farmer at risk of losing the full 
coverage of their crop insurance. It is the most important tool 
for farmers to manage risk, and it is vital that crop insurance 
is not an impediment, and it is vital that it is not an 
impediment to science-based voluntary conservation activities.
    Can I have your commitment to work with me to ensure that 
is the case and to get this straightened out?
    Secretary Perdue. Certainly, and I would appreciate being 
educated about that. I am not aware of that ding there. So if 
you will help us understand specifically what is going on----
    Senator Donnelly. We would love to because you are a 
common-sense guy, and I knew that you would look. If you said 
if you do conservation, your crop insurance at risk, that makes 
no sense at all.
    Finally, last is we know commodity prices are low, and we 
know just how vital it is for us to open new markets for 
farmers to sell products.
    In your testimony, you mentioned work that my fellow 
Hoosier, Ted McKinney, who is a friend and an incredibly hard 
worker, as you know, is doing to open markets around the globe. 
I am very supportive of those efforts, but I want to make sure 
we are not losing sight of the potential for market expansion 
that biofuels provide for farmers.
    Instead of cutting back RFS, we should be pushing to expand 
market opportunities for biofuels. I know it is technically in 
the jurisdiction of EPA, but as the head of the agency working 
on behalf of American farmers, I want to remind you we could 
start selling E15 or other higher blends of biofuels tomorrow 
if we address the nonsensical Reid vapor pressure regulation.
    Senators Fischer, Grassley, and I have been working to 
address this legislatively, but there is some who think it can 
be done through regulation.
    When the administration is looking to expand market 
opportunities for farmers, are you highlighting issues like 
this with the President and others in the Cabinet? If not yet, 
would you?
    Secretary Perdue. On a fairly regular basis, sir.
    Senator Donnelly. Okay. That is very good. If you need 
help, give us a call.
    Thank you.
    Thank you, Mr. Chairman.
    Chairman Roberts. Senator Thune.
    Senator Thune. Thank you, Mr. Chairman. Senator Stabenow, 
thanks for having the hearing, and thank you, Secretary Perdue, 
for being here today and sharing your thoughts with us about 
the State of agriculture.
    Since being confirmed as USDA Secretary, you have been 
traveling the country, and we appreciate that. You have been to 
my State more than once, actually, and I appreciate the hands-
on approach you have taken to how the actions that are taken 
by--and policy ideas that are put forward impact South Dakota 
and American agriculture.
    I am sure what you have heard from farmers around this 
country and ranchers is that they are hopeful. They are 
resilient, but they are also anxious and concerned about their 
future, their families' future, and the sustainability of their 
operations.
    In my State of South Dakota, Mr. Secretary--and I would 
argue in the broader rural economy--I think that the success 
and prosperity of agriculture is really contingent on three 
major areas, all of which you can address.
    First is, of course, trade. Second is the RFS, renewable 
fuel standard, which you have heard talked about quite a bit 
today, and the next and the last is the Farm Bill. The fourth 
factor is the weather, which is always a factor in South Dakota 
agriculture, but I do not believe that is something you have 
any control over.
    So regarding agricultural trade, I would just like to go on 
the record in opposition to ad hoc price loss payments to 
producers who suffer economic loss from trade sanctions, 
tariffs, and loss of export markets due to our trade policies.
    We urgently need well-crafted trade agreements that 
maintain and expand markets, and we need these agreements 
sooner rather than later.
    Farmers and ranchers need and want their income from the 
marketplace, not market loss assistance payments from the 
Federal Government. So I hope that we are working aggressively 
to open up more trading opportunities for American agriculture 
for our farmers and ranchers.
    Finally, I do want to express I appreciate the quick 
turnaround regarding a letter I sent on April 16th after Winter 
Storm Xanto pounded portions of South Dakota with record 
snowfall right before birthing season.
    I received a response yesterday from Under Secretary 
Northey informing me that FSA is announcing clarifications to 
the LIP policy later today based on that request. So I would 
like to say now that your timely response and sensitivity to 
this issue to assist our livestock industry is very much 
appreciated.
    Last May, as I mentioned, you came to South Dakota. You 
joined me on a tour of the Black Hills National Forest and saw 
firsthand the effects that the pine beetle infestation has had. 
You also had the chance to see the positive impact that 
thinning and the timber sales program have had on forest health 
in South Dakota.
    However, a large portion of the Black Hills National Forest 
remains at high risk of catastrophic wildfires. So can you tell 
me if we can expect timber sales to increase this year in the 
Black Hills National Forest?
    Secretary Perdue. Senator, under the authorities you all 
provided us in the forest management as well as the fire 
funding, we certainly hope so. We will prioritize those, and I 
would expect there are a lot of pent-up demand elsewhere in 
many other places. I cannot specifically address what the plan 
is for that, but I can have our chief forester tell you what 
the forest plan regarding sales are.
    But what you all were able to do in that bill frees us up 
to do what we need to do, and what I saw in your area in the 
Black Hills Forest showed me very demonstrably how good forest 
management can make a difference in insects and in wildland 
fires.
    Senator Thune. Good. That was the intended effect of the 
legislation.
    Let me just reiterate a point that has been made by a 
number of my colleagues already on the RFS. These waivers that 
have been granted by EPA are a backdoor way to reduce the 
renewable fuel standard and the RVO, and then the President's 
express commitment, which you were I think at that meeting that 
we all attended, where he indicated his desire to move forward 
with year-round E15 sales, that is really critical. I hope that 
we can count on you to make the arguments on behalf of American 
agriculture to the administration.
    You mentioned earlier, a lot of this is in the EPA's--and I 
understand the EPA, and I understand where they are coming 
from, but I understand they maybe have a different view or 
different position. But from agriculture standpoint, we need 
strong advocates to this administration to expand E15 sales 
year-round and second to put a stop to these waivers that EPA 
continues to grant to refiners out there that are supposed to 
be for hardship, but clearly in this case have been used for 
purposes other than that.
    So I will reiterate what has already been said by a number 
of my colleagues, but I just want you to know how important 
this is to agriculture across this country and how important we 
view your advocacy to be in terms of the administration, 
shaping the administration's views with respect to the future 
of the RFS.
    I have a couple of other questions with respect to the Farm 
Bill, Mr. Chairman, but I see my time has expired, and it is 
not even high noon. So, with that, I will yield back.
    Chairman Roberts. I thank the gentleman for his comments.
    Senator Smith, who has been waiting very patiently.
    Senator Smith. Chair Roberts, thank you so much, and I am 
so happy to be here.
    Secretary Perdue, it is wonderful to see you again, and we 
appreciated very much welcoming you to Minnesota last August, I 
think, when I was still Lieutenant Governor.
    I really appreciated your comments in your testimony today 
about all of the factors that need to come into rural 
development. This is very much on the minds of Minnesotans as 
we think about everything before us, with a tough ag economy.
    As I think about the Farm Bill, everything that my 
Minnesota constituents are telling me is that we need to have 
strong farm programs, including conservation. We need to have 
strong nutrition programs, and then we need to have strong 
rural development programs. If those three things hang 
together, then we can have a good bill, and if they do not hang 
together, then it is going to be dicey.
    Secretary Perdue. Right.
    Senator Smith. One thing that you have had a chance to talk 
about quite a bit, I want to just double back on briefly, is 
rural broadband.
    Minnesota has a border-to-border broadband program, which 
has been--it is a very successful mode. It includes--it is a 
public-private partnership, where the public and the private 
sector players come together in those areas where it is just 
not economic for a private sector business on their own to go 
that last mile.
    We have succeeded in getting 34,000 households and 5,000 
businesses connected. It is a competitive grant program, and 
what it does is it--it has good accountability. So, when you do 
the grant, you are going to get it done by when for how many 
people, and it sounds like this is very much the kind of things 
that you would be looking for as you are developing this pilot 
program at USDA?
    Secretary Perdue. It certainly is. We would love to look at 
that program closely to model some of our parameters around.
    Senator Smith. Well, I would love to have you, love to 
welcome you to Minnesota, and we could show you around and show 
you how it is working because I think it is a really good 
model, with good speed goals too. You got speed, reliability, 
affordability. It is all coming together.
    I just want to touch on another thing that I know is so 
important to Minnesotans living in rural areas, which is the 
challenges around housing. In rural areas, that is the housing 
that is often the oldest housing stock, the biggest challenges 
with affordability.
    Senator Shaheen and I have introduced our Rural Housing 
Preservation Act, which would help protect access to affordable 
housing for families in rural areas.
    I wanted to just give you an opportunity. I would love to 
have you take a look at that proposal and would love to give 
you an opportunity to talk a little bit about housing issues, 
as you see it.
    Secretary Perdue. Well, certainly. One of Rural 
Development's portfolios certainly is housing, and it is 
extremely important in rural areas, both multifamily and 
single-family housing. So we would welcome any kind of 
conversation over that if there are specific areas or needs 
that you have in Minnesota.
    Senator Smith. That would be great.
    We find that, increasingly, lack of access to affordable 
housing is a limit on economic growth because there is just 
literally no good place for people to live.
    Then the last thing I would like to touch on is the issue 
of connecting the USDA with our tribal nations, and I sit on 
the Indian Affairs Committee as well as this Committee. 
Actually, Senator Hoeven and Senator Daines and Senator Udall 
and I sent you a letter asking you to take an---look at 
opportunities for including tribal representatives in trade 
missions and in other work around the USDA, and I want to thank 
you for your response letter, which we got last night, which is 
much appreciated.
    I just wanted to also give you a chance to talk a little 
bit about how we can--kind of what the opportunities are for 
including tribal nations more in our work at USDA.
    Secretary Perdue. Well, again, I think the first principle 
is these are Americans, and that we need to treat them as such 
in that regard. While they live possibly in sovereign areas, 
nonetheless we have a responsibility in their area as well.
    I have been very pleased, as I have visited with many of 
them, over the entrepreneurship and the commerce that is 
happening on our tribal lands. So I appreciate your interest in 
that, and I think we have got a good story to tell in that 
regard.
    We have a new Office of Partnerships and Outreach that has 
specific tribal representatives that make sure we are 
addressing, and there are some specific unique needs in those 
areas that we are trying to address one by one.
    Senator Smith. Well, thank you. I very much appreciate your 
attention to that.
    The American Indian Foods International Export Program 
generated around $62 million in sales for native products 
between 2014 and 1916. So to your point about the 
entrepreneurial opportunities available to these sovereign 
nations is a great point, and I look forward to working with 
you on that.
    Secretary Perdue. If they had rural broadband, they could 
sell more.
    Senator Smith. That is exactly right. They could access 
markets all over the world.
    Thank you.
    Chairman Roberts. Senator Daines.
    Senator Daines. Thank you, Chairman Roberts and Ranking 
Member Stabenow for holding this hearing.
    Secretary Perdue, thank you. You are a breath of fresh air 
here in Washington, DC. We are glad that you are serving in 
this capacity, truly, and thanks for coming here.
    You have been to South Dakota. You have been to Minnesota, 
twice to Montana. You are like Johnny Cash, I think in terms of 
you have been everywhere, sir, and thank you for getting out of 
the ivory towers of Washington, DC, out of the fog and the mist 
of this place and out where the real folks are, out in the 
Heartland of our Nation.
    I noticed the logo on our pads here in this Committee, it 
is the Committee on Agriculture, Nutrition, and Forestry, and I 
know you understand that as you work with the Forest Service. 
It is always a good reminder that this Committee has a broad 
jurisdiction in many ways, as do you, thinking about our 
forests.
    I fought hard to secure the forest management reforms and 
wildfire funding reforms recently enacted. I just came from an 
Energy and Natural Resources Committee, and some of my 
colleagues, I think were spiking the ball about liberating the 
Forest Service.
    I would just kindly offer a different perspective. We are 
in the first quarter. We have put some good stats on the board, 
but I think we have got a long ways to go here before we win 
this battle. These reforms are a good first step to reduce the 
80-million-acre restoration backlog at the Forest Service, but 
more needs to be done to reduce the red tape and the courtroom 
challenges that we see happen from these fringe litigators.
    Mr. Secretary, would you agree there is more Congress could 
do to combat litigation and accelerate much needed restoration 
projects on our national forests?
    Secretary Perdue. I would, Senator.
    It is unfortunate when we work in a community and get local 
buy-in, even from the environmental community locally, and 
outside groups who are there for the litigation that come from 
many States away to do that.
    I am also a big believer that mediation might be an 
appropriate step in that as well.
    Senator Daines. We got back home in Montana, 20 timber 
sales totaling 140 million board feet, where a NEPA project 
decision is enjoined.
    In Region 1 alone, litigation resulted in millions of 
dollars of lost legal and attorney fees, loss of timber sales 
and revenue, devastating effects on our local communities.
    I was just up in Northwest Montana, up in Lincoln County, 
where there is no longer a sawmill there, and yet the namesake 
of the high school and the county seat there is the Libby 
Loggers. There is not a timber mill, sawmill in their county 
anymore.
    Does the Forest Service support this idea of an arbitration 
pilot? I recognize we have got to walk before we run, but 
arbitration pilot authority, like the one that was proposed in 
a bill I have got here, Protecting Collaboration for Healthier 
Forests Acts, to ensure that swifter resolution of litigation 
and producing faster implementation of projects, particularly 
out West.
    Secretary Perdue. We would welcome something like that, an 
arbitration mitigation type of scenario that we think would be 
quicker and probably less expensive on all parties. If the goal 
is really true forest management and environmental protections, 
we have nothing to hide in that regard, and we would welcome 
something like that.
    Senator Daines. Thank you, Mr. Secretary.
    Switching gears, I just came back from leading a 
congressional delegation to China with five Senators, including 
two from this Committee--Senator Grassley and Senator Perdue. 
It is imperative to work in concert with our allies to ensure 
that U.S. businesses, farmers, ranchers are able to compete on 
a level playing field.
    Admittedly, it is a long play, but I do believe reengaging 
in the Trans-Pacific partnership, which you know was broadly 
supported by the ag community, is one strategy that could 
provide increased market access for U.S. ag, while also serving 
as a counterweight to China's growing influence in the region.
    I support the administration's view of stronger bilateral 
agreements. I can certainly see the wisdom in that, but I also 
see we have got maybe a broader strategy. We could combine some 
multilateral agreements. Frankly, NAFTA is a multilateral 
agreement, as the President and his team is working to make 
that a much better deal for the American people.
    But when we pull out of the TPP, China increases influence 
in the region. Secretary Perdue, notwithstanding other aspects 
of TPP, would joining that agreement do you believe benefit 
U.S. agriculture?
    Secretary Perdue. I do. I think, again, it forms a united 
front with our allies in an effort of tariff reduction that 
excludes China to our benefit and not to their benefit, and I 
concur with you there.
    I have encouraged the President in that regard to consider 
the TPP again. He made a statement at the Cabinet meeting the 
other day that--and actually engaged Larry Kudlow and 
Lighthizer to look at that. Obviously, Ambassador Lighthizer is 
covered up now with NAFTA negotiations and China restrictions, 
but I would welcome us looking at rejoining the TPP.
    Again, I think the President's negotiating style could 
possibly get even a better agreement this time around.
    Senator Daines. Thank you, Mr. Secretary.
    Chairman Roberts. I thank the Senator for his comments and 
his questions.
    What community were we visiting up in Montana where we had 
the city fathers----
    Senator Daines. Yes.
    Chairman Roberts [continuing]. and we had a group of 
loggers, and because of the legal hurdles that----
    Senator Daines. Mr. Chairman, that was Columbia Falls, 
Montana. In fact, we met at the oldest family owned sawmill in 
Montana, which is called Stoltze Lumber.
    Chairman Roberts. If memory serves me correct, there were 
several folks there running several logging operations, but 
only one was going to go back in because of the legal problems, 
or was that two out of three, or what----
    Senator Daines. Yes. The litigation amongst, frankly, these 
fringe serial litigators, who are not part of the collaborative 
process--they are outside the collaborative process, and after 
the collaboratives get their work done, they will oftentimes 
come in at the end and stop something that has been worked with 
conservation groups, wildlife groups, the timber industry. I 
appreciate you visiting there, Mr. Chairman, and continuing to 
lead this Committee to try to find a solution to this challenge 
we face.
    It is hurting the Heartland. It is a kick in the gut for us 
out in Montana.
    Chairman Roberts. Well, we appreciate your leadership on 
that.
    Senator Daines. Thank you.
    Chairman Roberts. I have one more question for you, Mr. 
Secretary, and then we will conclude. I thank the Senator from 
Michigan's patience.
    Mr. Secretary, in the President's 2019 budget request, 
there is a reference to a national security asset currently 
being constructed in Kansas proposing ``to transfer operational 
responsibility for the National Bio and Agro-Defense 
Facility.'' The acronym for that is NBAF. That is to move that 
facility or the operational facility from the Department of 
Homeland Security to the Department of Agriculture.
    NBAF will be the first U.S. Laboratory capable of 
functioning at the highest containment level at Biosafety Level 
4 for agriculture. It was designed with partnership in mind 
primarily between the Department of Homeland Security and the 
Department of Agriculture.
    Obviously, the job of the Department of Homeland Security 
is to consider and protect threats from adversaries, more 
especially agro-terrorism, and the Department of Agriculture's 
responsibility is to bring the knowledge of agriculture and to 
protect our food supply.
    If the NBAF Lab is in the Department's portfolio, how will 
this level of partnership at a minimum stay the same or get 
better, certainly, hopefully to improve between the Department 
of Agriculture and DHS?
    Secretary Perdue. My vision, Senator, is that the core 
competency of USDA with the Agricultural Research Service on an 
ongoing basis is more suited to operate NBAF on an ongoing 
basis from research, development of vaccines, and other types 
of containment of some of the worst diseases known to man.
    Obviously, the relationship with DHS has to continue to be 
a partner because they have the statutory authorities in light 
of bioterrorism to step in with the unique authorities that we 
do not have. So I would view it as a continued partnership with 
us doing the ongoing research and the management of the lab and 
the containment facility there that you have described as the 
highest level in the world and dealing with those kind of 
things like FMD and the other types of zoonotic diseases that 
threaten us on an ongoing basis.
    But we would have to have a continued relationship with DHS 
in light of a failure or a break or a breach there because of 
the authorities they would have.
    Chairman Roberts. Mr. Secretary, I thank you very much for 
that statement. It is especially helpful with regards to 
clarification.
    This will conclude our hearing today. To Secretary Perdue, 
thank you for your efforts and your views on the State of rural 
America. Keep on and keep on, my friend.
    Secretary Perdue. Thank you.
    Chairman Roberts. To my fellow members, we would ask that 
any additional questions you may have for the record be 
submitted to the Committee, 5 business days from today or by 5 
p.m., next Tuesday, May the 1st.
    The Committee is adjourned.
    [Whereupon, at 12:11 p.m., the Committee was adjourned.]

      
=======================================================================


                            A P P E N D I X

                             APRIL 24, 2018

=======================================================================

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             APRIL 24, 2018

=======================================================================

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


      
=======================================================================


                         QUESTIONS AND ANSWERS

                             APRIL 24, 2018

=======================================================================

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
